<html>
<title> - ENCOURAGING HEALTHY CHOICES FOR HEALTHY CHILDREN</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
         ENCOURAGING HEALTHY CHOICES FOR HEALTHY CHILDREN

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EDUCATION REFORM

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           February 12, 2004

                               __________

                           Serial No. 108-43

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov





                        U.S. GOVERNMENT PRINTING OFFICE

91-836                            WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001








                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EDUCATION REFORM

                 MICHAEL N. CASTLE, Delaware, Chairman

Tom Osborne, Nebraska, Vice          Lynn C. Woolsey, California
    Chairman                         Susan A. Davis, California
James C. Greenwood, Pennsylvania     Danny K. Davis, Illinois
Fred Upton, Michigan                 Ed Case, Hawaii
Vernon J. Ehlers, Michigan           Raul M. Grijalva, Arizona
Jim DeMint, South Carolina           Ron Kind, Wisconsin
Judy Biggert, Illinois               Dennis J. Kucinich, Ohio
Todd Russell Platts, Pennsylvania    Chris Van Hollen, Maryland
Ric Keller, Florida                  Denise L. Majette, Georgia
Joe Wilson, South Carolina           George Miller, California, ex 
Marilyn N. Musgrave, Colorado            officio
John A. Boehner, Ohio, ex officio

                                 ------                                














                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 12, 2004................................     1

Statement of Members:
    Castle, Hon. Michael N., a Representative in Congress from 
      the State of Delaware......................................     1
        Prepared statement of....................................     3
    Upton, Hon. Fred, a Representative in Congress from the State 
      of Michigan, Prepared Statement of.........................    48
    Woolsey, Hon. Lynn C., a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Cooper, Dr. Kenneth H., Founder, President, and CEO, The 
      Cooper Institute...........................................     7
        Prepared statement of....................................     9
    McCord, Tim, Health/Physical Education Department Chair, 
      Titusville Area School District............................    13
        Prepared statement of....................................    15
    Young, Dr. Judith C., Vice President, Programs for the 
      American Alliance for Health, Physical Education, 
      Recreation, and Dance......................................    18
        Prepared statement of....................................    20

Additional materials supplied:
    Green, Darrell, Statement submitted for the record...........    48















            ENCOURAGING HEALTHY CHOICES FOR HEALTHY CHILDREN

                              ----------                              


                      Thursday, February 12, 2004

                     U.S. House of Representatives

                    Subcommittee on Education Reform

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee on Education Reform met, pursuant to 
notice, at 10:06 a.m., in room 2175, Rayburn, Hon. Michael N. 
Castle [Chairman of the Subcommittee] presiding.
    Present: Representatives Castle, Boehner, Woolsey, Osborne, 
Davis of California, Greenwood, Biggert, Keller, Van Hollen, 
and Majette.
    Staff present: Julian Baer, Legislative Assistant; Kevin 
Frank, Professional Staff Member; Kate Houston, Professional 
Staff Member; Stephanie Milburn, Professional Staff Member; 
Deborah Samantar, Committee Clerk/Intern Coordinator; Denise 
Forte, Minority Legislative Associate/Education; Joe Novotny, 
Minority Legislative Assistant/Education; and Lynda Theil, 
Minority Legislative Associate/Education.
    Chairman Castle. A quorum being present, the Subcommittee 
on Education Reform of the Committee on Education and the 
Workforce will come to order.
    We're meeting today to hear testimony on ``Encouraging 
Healthy Choices for Healthy Children.'' Under Committee rule 
12(b), opening statements are limited to the Chairman and the 
Ranking Minority Member of the Committee. Therefore, if other 
Members have statements, they may be included in the hearing 
record.
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow Members' statements and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record. Without objection, so 
ordered.

STATEMENT OF HON. MICHAEL N. CASTLE, CHAIRMAN, SUBCOMMITTEE ON 
   EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Chairman Castle. Good morning. I would like to welcome all 
of you to our hearing today, ``Encouraging Healthy Choices for 
Healthy Children.'' This is the Committee's third hearing to 
prepare for the reauthorization of the Child Nutrition Act and 
Richard B. Russell National School Lunch Act.
    The battle against childhood obesity is a major issue that 
this Committee will address in the context of the child 
nutrition reauthorization. As we all know, childhood obesity 
has become a major health problem in the United States, and 
studies suggest that overweight children are significantly more 
likely to become overweight or obese adults.
    This is a matter of great concern to us as a Committee and 
to society in general. According to a report by the National 
Institute for Health Care Management, the number of overweight 
and obese young Americans doubled between 1990 and 2000. As a 
result, children are increasingly suffering from conditions 
traditionally associated with adulthood, including Type II 
diabetes, insulin resistance, high cholesterol, high blood 
pressure, sleep apnea, orthopedic complications, and are 
troubled by other effects, such as low self-esteem.
    In addition to afflicting distress through chronic disease 
and premature death, the dramatic rise in obesity rates has had 
economic repercussions. A new CDC-sponsored study reports that 
obesity-related medical expenditures in the United States 
reached $75 billion in 2003. These statistics demonstrate that 
we as a nation must address the growing problem of childhood 
obesity if we are to prevent further pain and expense.
    Parents bear primary responsibility for ensuring that their 
children eat well and exercise regularly. However, schools can 
and should play a positive role by giving children access to 
nutritious meals and snacks, nutrition education, and time to 
engage in daily physical activity.
    In 2001, the U.S. Surgeon General issued a report, 
identifying schools as a key setting for developing public-
health strategies to prevent obesity. Never before in history 
have lawmakers and educators been more engaged in efforts to 
improve academic performance, and at the same time schools are 
cutting back or abandoning physical education despite the fact 
that physical fitness has been shown to improve test scores.
    A report from the National Association for Sport and 
Physical Education that compared almost one million students 
found that higher achievement directly corresponded to a higher 
level of student fitness, and that those students that 
exhibited a minimum level of fitness in at least three physical 
areas made the greatest academic gains.
    Over the past several years, schools and programs providing 
meals and snacks to children have made progress in improving 
lunch menus to meet Federal nutrition standards for fat and 
calories, but I believe more can be done to provide every 
school child with a school environment that promotes healthy 
food choices and regular physical activity. The decrease in the 
physical activity of our children, both in school and at home, 
has been shown to be a major factor in the rise of childhood 
obesity.
    That is why I introduced legislation, H.R. 2227, the 
Childhood Obesity Prevention Act, that would authorize grants 
to fund pilot programs at the state and local levels to 
encourage the development and implementation of programs to 
promote healthy eating and increased physical activity among 
children.
    As this Committee seeks to improve child nutrition programs 
and address the important and complex issues of childhood 
obesity during reauthorization, we will examine the available 
science and take into consideration all factors known to 
contribute to obesity, while supporting the role of local 
school districts to make decisions about the foods and 
activities that are available to children in school.
    Today we have gathered experts in the areas of physical 
health and activity, and I look forward to hearing their 
testimony. I believe that our witnesses' unique perspectives on 
physical activity, child nutrition, and health will offer 
insights that will be tremendously helpful to the Members of 
this Committee as we work to improve child nutrition programs 
and to do our part in the battle against childhood obesity, and 
we look forward to their comments.
    In a moment, I will begin with the introductions of our 
witnesses, but first, I will yield to our Ranking Member, Ms. 
Woolsey, for any statement she may wish to make.
    [The prepared statement of Chairman Castle follows:]

  Statement of the Hon. Michael N. Castle, Chairman, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

    Good morning. I would like to welcome all of you to our hearing 
today, Encouraging Healthy Choices for Healthy Children. This is the 
Committee's third hearing to prepare for the reauthorization of the 
Child Nutrition Act and Richard B. Russell National School Lunch Act.
    The battle against childhood obesity is a major issue that this 
Committee will address in the context of the child nutrition 
reauthorization. As we all know, childhood obesity has become a major 
health problem in the United States, and studies suggest that 
overweight children are significantly more likely to become overweight 
or obese adults. This is a matter of great concern to us as a 
Committee, and to society in general. According to a report by the 
National Institute for Health Care Management, the number of overweight 
and obese young Americans doubled between 1990 and 2000. As a result, 
children are increasingly suffering from conditions traditionally 
associated with adulthood, including Type 2 diabetes, insulin 
resistance, high cholesterol, high blood pressure, sleep apnea, 
orthopedic complications, and are troubled by other effects such as low 
self-esteem.
    In addition to afflicting distress through chronic disease and 
premature death, the dramatic rise in obesity rates has had economic 
repercussions. A new CDC-sponsored study reports that obesity-related 
medical expenditures in the United States reached $75 billion in 2003. 
These statistics demonstrate that we as a nation must address the 
growing problem of childhood obesity if we are to prevent further pain 
and expense.
    Parents bear primary responsibility for ensuring that their 
children eat well and exercise regularly. However, schools can and 
should play a positive role by giving children access to nutritious 
meals and snacks, nutrition education, and time to engage in daily 
physical activity. In 2001, the U.S. Surgeon General issued a report 
identifying schools as a ``key setting'' for developing public health 
strategies to prevent obesity. Never before in history have lawmakers 
and educators been more engaged in efforts to improve academic 
performance, and at the same time schools are cutting back or 
abandoning physical education, despite that physical fitness has been 
shown to improve test scores. A report from the National Association 
for Sport and Physical Education that compared almost one million 
students found that higher achievement directly corresponded to a 
higher level of student fitness, and that those students that exhibited 
a minimum level of fitness in at least three physical areas made the 
greatest academic gains.
    Over the past several years, schools and programs providing meals 
and snacks to children have made progress in improving lunch menus to 
meet federal nutrition standards for fat and calories, but I believe 
more can be done to provide every child with a school environment that 
promotes healthy food choices and regular physical activity. The 
decrease in the physical activity of our children, both in school and 
at home, has been shown to be a major factor in the rise of childhood 
obesity.
    That is why I introduced legislation, H.R. 2227, the Childhood 
Obesity Prevention Act, that would authorize grants to fund pilot 
programs at the state and local levels to encourage the development and 
implementation of programs to promote healthy eating and increased 
physical activity among children.
    As this Committee seeks to improve child nutrition programs and 
address the important and complex issue of childhood obesity during 
reauthorization, we will examine the available science and take into 
consideration all factors known to contribute to obesity, while 
supporting the role of local school districts to make decisions about 
the foods and activities that are available to children in school.
    Today we have gathered experts in the areas of physical health and 
activity, and I look forward to hearing their testimony. I believe that 
our witnesses' unique perspectives on physical activity, child 
nutrition, and health will offer insights that will be tremendously 
helpful to the Members of this Committee as we work to improve child 
nutrition programs and to do our part in the battle against childhood 
obesity. We look forward to their comments.
    With that, I would like to recognize my colleague from California, 
and the Ranking Member of this Subcommittee, Ms. Woolsey.
                                 ______
                                 

STATEMENT OF HON. LYNN WOOLSEY, RANKING MEMBER, SUBCOMMITTEE ON 
   EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Ms. Woolsey. Thank you, Mr. Chairman, and thank you to the 
panel for--our witnesses for being here today. You're aware 
that we're out of session, so that's why the room is slightly 
empty. When we're let go, we go home. So I'm delighted to have 
stayed here to be with you, though.
    The rise in overweight and obese children is definitely a 
serious national health issue, as well as a real quality-of-
life issue for our children. There's no question that 
encouraging children to increase their physical activity will 
help them to prevent or reduce obesity.
    This hearing today will highlight the importance of 
physical activity and will come up with suggestions, I hope, 
about how we can help children make the choice to be more 
active. That's very, very important. I'm concerned, however, 
that some people want to place the blame from the increase in 
obesity in children solely on a lack of physical activity.
    I have heard the obesity epidemic described as sedentary 
lifestyle choices for children. Well, you know, kids don't 
choose to sit. I mean, there's a lot of things we have to be 
looking at in that regard. But while--and while the lack of 
physical activity certainly contributes to childhood obesity, 
it's definitely not the only cause, and we have to address that 
also.
    We will never prevent or reduce childhood obesity and the 
adult health problems that it leads to without good, ongoing 
nutrition education in our schools and a healthier school 
environment.
    The Federal school food programs provide a natural and 
obvious opportunity to educate children and their families 
about healthy food choices. I urge the Committee to include the 
team nutrition network grants that are part of the Child 
Nutrition Reauthorization Bill that Mr. Miller and I introduced 
and is co-sponsored by Democratic Members of this Subcommittee 
when we reauthorize child nutrition. Team nutrition grants help 
states to develop a statewide, comprehensive nutrition 
education program, and also provides training and technical 
assistance to schools and school food service professionals.
    Children can't make healthy choices if they don't know what 
those choices are. Schools can also help children make healthy 
choices by offering them healthy foods and drinks throughout 
the school building before school, during school, and after 
school.
    The most basic decisions on what children eat are made by 
their parents. No question about that. And no one is 
recommending that we send some kind of food police into homes 
to tell parents what foods they have to send in their 
children's lunches. This is not an appropriate Federal role, 
and we all know that.
    The Federal Government does, however, invest significant 
resources--$8.4 billion in fiscal year 2002 alone--in school 
foods, and selling junk foods in schools strongly undermines 
that Federal investment. We have strong Federal nutrition 
standards for the foods that are sold in school lunches and 
breakfasts. There's no reason why the foods sold in the a-la-
carte lines and vending machines should not be required to meet 
the same standards.
    So while I certainly agree that physical inactivity is 
contributing to childhood obesity, I hope that we will not 
ignore the very major role that increased calories intake also 
plays. For instance, a child would have to bike for 1 hour and 
20 minutes to burn off the calories for a 20-ounce Coke.
    So even if kids have physical education every day in school 
and participate in physical activity outside of school, they 
will not be able to exercise their way out of obesity. We need 
to be doing much, much more to help them. I look forward to 
your testimony, and thank you for coming.
    [The prepared statement of Ms. Woolsey follows:]

    Statement of Hon. Lynn Woolsey, Ranking Member, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

    Thank you, Mr. Chairman.
    The rise in overweight and obese children is a serious national 
health issue, as well as a real quality of life issue for children.
    There is no question that encouraging children to increase their 
physical activity will help them to prevent or reduce obesity. I am 
glad that we are having this hearing today to highlight the importance 
of physical activity and to get suggestions about how we can help 
children make the choice to be more active.
    I am concerned, however, that some people want to place the blame 
for the increase in obesity in children solely on a lack of physical 
activity. I have heard the obesity epidemic described as a ``sedentary 
lifestyle choice.''
    While the lack of physical activity certainly contributes to 
childhood obesity, it is definitely not the only cause. We will never 
prevent or reduce childhood obesity, and all the adult health problems 
it leads to, without good ongoing nutrition education in our schools 
and a healthier school environment.
    The federal school food programs provide a natural opportunity to 
educate children and their families about healthy food choices. I urge 
the committee to include the ``Team Nutrition Network Grants'' that are 
part of the child nutrition reauthorization bill that Mr. Miller and I 
introduced, and is cosponsored by almost every democratic member of 
this subcommittee when we reauthorize child nutrition. ``Team 
Nutrition'' grants help states to develop a state-wide, comprehensive 
nutrition education program and also to provide training and technical 
assistance to schools and school food service professionals.
    Children can't make healthy choices if they don't know what those 
choices are!
    Schools can also help children make healthy choices by offering 
them healthy foods and drinks, throughout the school building. The most 
basic decisions on what children eat are made by their parents and 
certainly no one is recommending that we send some kind of food police 
into homes or tell parents what foods they have to send in their 
children's lunches. That is not an appropriate federal role.
    The federal government does, however, invest significant 
resources--$8.4 billion in fiscal year 2002--in school foods, and 
selling junk foods in schools strongly undermines that federal 
investment. We have strong federal nutrition standards for the foods 
that are sold in school lunches and breakfasts. There is no reason why 
the foods sold in the a la carte lines and vending machines should not 
be required to meet these same standards.
    So, while I certainly agree that physical inactivity is 
contributing to childhood obesity, I hope that we will not ignore the 
very major role that increased calorie intake also plays. For instance, 
a child would have to bike for one hour and twenty minutes to burn off 
the calories from a twenty ounce coke. So, even if kids have physical 
education every day in school and participate in physical activity 
outside of school, they will not be able to exercise their way out of 
obesity. We need to be doing much more to help them.
                                 ______
                                 
    Chairman Castle. Thank you, Ms. Woolsey. We appreciate your 
statement, and you may rest assured that we'll neither ignore 
the food intake or the exercise.
    I will now introduce all three of our witnesses, and then I 
will turn to each of you for your 5-minute presentation. And 
I'll start with Dr. Kenneth Cooper.
    Dr. Cooper is known by many as the father of aerobics, and 
is credited with motivating more people to exercise than any 
other person. He has spent his career researching and 
advocating for a prevention-focused lifestyle, and has been 
recognized for more than three decades as the leader of the 
physical fitness movement.
    Dr. Cooper is the president and CEO of the Cooper Aerobics 
Center, where he's supported by a 400-person staff in carrying 
out his mission to educate and encourage optimum health. He has 
authored 18 books, lectured in over 50 countries, and developed 
a fitness test used by our military and the private sector. And 
by my standards, you are a legend, sir, and we are delighted to 
have you here today.
    Mr. Tim McCord is the chairman of the Health and Physical 
Education Department at the Titusville School District in 
Titusville, Pennsylvania. He was awarded the Health Educator of 
the Year award in 2003 by the Pennsylvania Alliance for Health, 
Physical Education, Recreation, and Dance.
    As a pioneer in the new PE movement, Mr. McCord has 
traveled around the country to promote the importance of 
quality physical education programs in schools, and we welcome 
you, Mr. McCord, and your efforts as well.
    And Dr. Judith C. Young is the Vice-President of Programs 
for the American Alliance for Health, Physical Education, 
Recreation, and Dance. In addition to having been a teacher, a 
coach, and professor, she spent 12 years serving as the 
executive director of the only national organization 
representing pre-K through 12th-grade physical education 
teachers.
    Dr. Young frequently travels around the country and the 
world to promote the importance of physical education, and has 
contributed to numerous publications. I must say, Dr. Young, 
when I went to school, physical education was just a part of 
it, but it doesn't seem to be quite as much anymore. So I'd be 
interested in your testimony as well.
    Before the witnesses begin to testify, I would like to 
remind the Members who will be asking questions after the 
entire panel has testified. In addition, Committee Rule 2 
imposes a 5-minute limit on all questions.
    And with that, Dr. Cooper, we turn to you, sir, for your 
statement and testimony before our Subcommittee.

 STATEMENT OF KENNETH COOPER, M.D., PRESIDENT AND CEO, COOPER 
          AEROBICS CENTER/COOPER CLINIC, DALLAS, TEXAS

    Dr. Cooper. Thank you. Mr. Chairman, Members of the 
Committee, I'm Dr. Kenneth Cooper, a physician and fitness 
advocate who founded the aerobics movement with the publication 
``Aerobics'' in 1968. And for more than 40 years, I've been 
dedicated to improving the health of Americans through proper 
weight, proper diet, and regular physical activity.
    My longstanding personal and professional philosophy is 
that it is easier and more effective to maintain good health 
than it is to regain it once it's lost. And I believe that 
exercise and wellness are not just a healthier choice, but a 
better way to live.
    The lack of a balanced diet, coupled with a lack of 
regular, daily physical activity, are increasingly leading to 
such deabilitating conditions as heart disease, diabetes, 
weight gain, and depression, among others.
    Kids today are more overweight and less fit than at any 
time in our history. Approximately 20 percent of American 
children are now considered to be overweight, which can lead to 
dire health consequences, and in Texas alone, there's 25 
percent that are overweight.
    For example, we're noticing an increase in Type II diabetes 
among children. The Baylor College of Medicine has even 
reported that children who develop Type II diabetes before 14 
years of age may be shortening their life span by 17 to 27 
years. It's been stated that one child out of every three born 
after the year 2000 will eventually come down with diabetes, 
and this may be the first generation in which the parents 
outlive the children.
    In addition, overweight children aren't physically fit 
compared to teenagers in 1980. It takes teenagers today one to 
1-1/2 minutes longer to run a mile, if they can even run that 
far. Furthermore, children who are not fit can suffer 
academically. A report to the National Association for Sports 
and Physical Education at Cooper Institute found that higher 
academic achievement was associated with higher levels of 
physical fitness.
    Physically active children also had improved self-esteem, 
were better able to handle adversity, and had better problem-
solving skills, and there were 953,000 fifth graders, seventh 
graders, and ninth graders in that study; a very highly 
significant study.
    Although it's not specifically documented in the research, 
the majority of students who could not meet the physical 
standards in the study were very likely overweight. Why is this 
so important? Because weight and fitness are critical because 
they're direct indicators of our health.
    I'm here today to put forth recommendations for reversing 
America's troubling obesity trends, but first, let's consider 
how we got there.
    The first law of thermodynamics. Thermodynamics. Most non-
scientists probably believe the concept of thermodynamics is 
completely irrelevant to their daily lives. Yet if each and 
every one of us better understood this relatively simple law of 
nature, half of this country probably wouldn't be overweight.
    In layman's terms, the fundamental cause of weight gain is 
energy intake that persistently exceeds energy expenditure. 
What presents the problem is that we're consuming more calories 
or energy than we are burning.
    In thinking of foods as fuel, if we eat fewer calories than 
we burn, we will have a negative energy balance and lose 
weight. If we eat more calories than we burn, we will have a 
positive energy balance and we will gain weight.
    Anyone debating obesity policy must question the cause of 
this positive energy balance. Is it attributable to an increase 
in energy intake, a decrease in energy expenditure, or a 
combination of both? And as Ms. Woolsey said a minute ago, it's 
a combination of both. It's not sedentary inactivity; it's the 
consumption of food.
    Breaking down the weight-gain equation. Right now, it 
appears that the most popular target in the obesity debate is 
the energy intake or caloric side of the weight gain. I believe 
that not nearly enough emphasis is put on energy expenditure or 
the amount of exercise particular kids are getting in schools.
    Increased calories are most definitely a factor in the rise 
of overweight children, but it's absolutely not the only cause. 
Yes, fast foods and convenience foods are more prevalent today 
than ever before, and, yes, portion sizes and caloric intake 
have increased. But that doesn't mean that these are the only 
culprits in our growing battle with the bulge. A wholesale lack 
of physical activity is the primary reason for expanding 
waistlines.
    When you think about the differences between our society 
today and 30 years ago, don't just think about the boom in 
fast-food restaurants. Consider the fact that those restaurants 
and many other businesses put in drive-thru windows. The 
convenience of drive-thru eating and shopping brought the 
disappearance of sidewalks in local planning and development 
strategies.
    And 30 years ago did children come home from school and eat 
cookies or potato chips before dinners? Of course, they did. 
But the difference is that they consumed these snacks after 
walking or riding their bikes from school. Then they went 
outside to play with their friends, unlike today, when they sit 
on a sofa and play video games or watch television.
    The younger generation's sedentary time in front of a 
screen has become tremendous factors in energy consumption. 
Today the average child spends 900 hours a year in school, 
compared with 1,023 hours watching TV. When you look at the 
difference between schools today and schools a generation ago, 
don't just focus on the vending machines now found in some 
hallways. What happened to PE?
    My strong feeling is you're not going to eliminate the 
problem of childhood obesity by eliminating the vending 
machines. But what we're required to do is to put better 
products in the vending machines, educate and motivate the 
children to select those products, and then bring physical 
education back into the schools where it belongs.
    There's only one state, Illinois, that mandates state 
physical education for students. A report issued by the 
International Sciences Institute stated that one in four 
children doesn't get any physical education in school 
whatsoever, and it is getting worse by the moment.
    Finding energy balance. If we are to develop long-lasting 
and comprehensive obesity policies that will truly help 
American children, we must address both sides of the weight-
loss equation. First, it's important to note the number of 
calories consumed.
    Just this last week it was reported that American adults 
have increased their caloric consumption from the year 1970/
1971 to 2000/2001. Women by 350 calories per day. Men, 185 
calories per day. With that type of increased caloric 
consumption, there's no question about it. A woman is going to 
gain one pound every 11 days. So there has been an enormous 
increase in food consumption, but along with that, a dramatic 
decrease in the amount of physical activity that our people are 
getting.
    I believe that eliminating vending machines, restricting 
taxing, prohibiting certain foods will not work, and these 
policies will do little or nothing to help people choose the 
best foods for their own needs. Therefore, I believe we must 
adopt a different approach to child eating patterns. And part 
of that approach is to provide healthier snacks and lunches, 
and then promote education--educate and motivate the kids to 
select these proper foods, and then bring PE back into the 
school systems.
    Yes, I've been a strong proponent of physical education and 
programs for the last 35 to 40 years. It's been depressing in 
my state that until 2002 we didn't have any requirement for K 
through four for kids to have physical education. Nothing for a 
period until 2002. But once that was implemented, we had a 
major problem. That is, not enough physical education 
programs--physical education teachers in the schools anymore, 
because we've de-funded those physical education programs to 
the extent we don't have any PE instructors to fill that slot.
    We've got a multi-headed problem here. It's not just the 
consumption of food, the inactivity, but it's lack of physical 
education teachers too--we've phased these people out to the 
extent that they aren't available.
    In summary, I would say this. I believe that one way to 
resolve the problem with childhood obesity would be to provide 
healthier food service in schools, which I am told could be 
done by subsidizing five to 10 cents more for breakfast and 
lunches, offering sensible and healthier snacks which meet a 
specific standard, educate and motivate children to select 
these better-for-you products, and then bring mandatory PE 
programs back into the schools for all children K through 12.
    I'm convinced it's a combination of problems. It's not just 
over-consumption of food. It's not inactivity. But our studies 
that the Research Institute in Dallas, Texas, have clearly 
shown that you're better fat and fit than skinny and sedentary. 
In no way am I endorsing obesity. I'm just telling you how 
dangerous it is to be sedentary. Thank you, Mr. Chairman.
    [The prepared statement of Dr. Cooper follows:]

   Statement of Kenneth H. Cooper, M.D., M.P.H., The Cooper Aerobics 
                  Center/Cooper Clinic, Dallas, Texas

    Good morning, Mr. Chairman and Members of the Committee. I am Dr. 
Kenneth Cooper, a physician and fitness advocate who founded the 
aerobics movement with the publication of ``Aerobics'' in 1968. For 
more than 40 years, I have been dedicated to improving the health of 
Americans through proper weight, proper diet and regular physical 
activity.
    My long-standing personal and professional philosophy is that it is 
easier and more effective to maintain good health than to regain it 
once it is lost. I believe--and I am backed by extensive public and 
private research--that exercise and wellness are not just a healthier 
choice, but a better way to live. The lack of a balanced diet coupled 
with a lack of regular, daily physical activity are increasingly 
leading to such debilitating conditions as heart disease, diabetes, 
weight gain and depression among many others.
    Kids today are more overweight and less fit than at any other time 
in our history. Since 1980, there has been a two- to three-fold 
increase in incidence of obesity in American children six to 19 years 
of age. Approximately 20 percent of American children are now 
considered to be overweight.
    Being overweight can lead to dire health consequences. Take, for 
example, the increasing prevalence of ``steatohepatitis,'' a condition 
that occurs when there is fatty infiltration of the liver. Until 
recently, it was most commonly seen in obese adults--particularly men--
and rarely seen in children. If it's not controlled, it can cause 
permanent damage to the liver in the form of hepatitis and cirrhosis, 
and it may be one reason that deaths from cancer of the liver is 4.52 
times greater in men with high body mass indexes (NEJM 348:17, April 
24, 2003).
    In obese children we are also noticing an increase in type II 
diabetes. In fact, the disease is no longer referred to as adult-onset 
diabetes since the prevalence in children nine to 12 years of age is 
increasing. Dr. William Klish of Baylor College of Medicine in Houston 
has reported that children who develop type II adult-onset diabetes 
before 14 years of age may be shortening their lifespan by 17 to 27 
years.
    In addition, our overweight children are not physically fit. 
Compared to teenagers in 1980, it takes teenagers today one to one and 
a half minutes longer to run a mile--if they can even make it that far.
    Children who are not fit can suffer academically. A report from the 
National Association for Sport and Physical Education (December 10, 
2002) sought parallels between physical fitness and academic 
performance. It matched almost one million 5th, 7th, and 9th graders 
who participated in the Fitnessgram developed by The Cooper Institute 
of Aerobics Research with their scores from the SAT (9th Edition).
    The study found that (1) higher achievement was associated with 
higher levels of fitness at each of the three grade levels measured; 
(2) the relationship between academic achievement and fitness was 
greater in mathematics than in reading, particularly at higher fitness 
levels; (3) students who met minimum fitness levels in three or more 
physical fitness areas showed the greatest gains in academic 
achievement in all three grade levels; and (4) females demonstrated 
higher achievement than males, particularly at higher fitness levels. 
And furthermore, the study reported that a quality physical education 
program will help children improve self-esteem and interpersonal 
skills, gain a sense of belonging through teamwork, handle adversity 
through winning and losing, learn discipline, improve problem-solving 
skills and increase creativity.
    A side note of interest to this study is that, although it was not 
specifically documented in the research, the majority of students who 
could not meet the physical fitness standards in the study were 
probably overweight.
    Why is this important? Weight and fitness are critical because they 
are direct indicators of overall health. It is through this lens--one 
that magnifies the correlation between fitness and overall health--that 
I look at the alarming data about childhood obesity in this country. 
Needless to say, I am quite concerned about the health of our children.
    My professional focus has always been on prevention, and I'm here 
today to put forth recommendations for reversing America's troubling 
obesity trends. But first let's consider how we got here.
The First Law of Thermodynamics
    Thermodynamics. Most non-scientists probably believe the concept of 
thermodynamics is completely irrelevant to their daily lives. Yet if 
each and every one of us--scientists or not--better understood this 
relatively simple law of nature, half of this country probably wouldn't 
be nearly as overweight.
    In layman's terms, the fundamental cause of weight gain is energy 
intake that persistently exceeds energy expenditure. What presents the 
problem is that we are consuming more calories--or energy--than we are 
burning.
    In thinking of food as fuel, if we eat FEWER calories than we burn, 
we will have a negative energy balance and lose weight. If we eat MORE 
calories than we burn, we will have a positive energy balance and gain 
weight.
    This equation has only two components, and anyone debating obesity 
policy must question the CAUSE of this positive energy balance. Is it 
attributable to an increase in energy intake, a decrease in energy 
expenditure, or a combination of both?
    Whether they realize it or not, the legislators, community leaders, 
parents and educators who are passionately debating the obesity crisis 
among our children are really debating the first law of thermodynamics. 
The complex relationship between inactivity, nutrition and obesity is 
causing lots of confusion.
Breaking Down the Weight Gain Equation
    Right now, it appears that the most popular target in the obesity 
debate is the energy intake--or caloric--side of the weight gain 
equation. I am here today because I believe that not nearly enough 
emphasis has been put on the energy expenditure--or exercise part of 
the equation. Increased calories are most definitely a factor in the 
rise in overweight children, but it is absolutely not the primary 
cause.
    My colleagues and I at the Cooper Institute have spent almost 35 
years scrutinizing the relationship between nutrition, fitness and 
health. We've gathered data from thousands of individuals who have 
participated in Cooper Institute programs and have publicized hundreds 
of papers in the scientific press.
    A recent government study did show that American women eat 335 
calories more a day now than they did in the early 1970s; men eat about 
168 calories more a day. And complicating this issue is the dramatic 
change in the level of physical activity. Americans--and especially 
children--are far less active now than ever before thanks to advances 
in technology and changes in our lifestyles that allow us to be 
sedentary more often than not.
    Yes, fast food and convenience foods are more prevalent today than 
ever before. And yes, portion sizes and caloric intake have increased. 
But that doesn't mean that these are the only culprits in our growing 
battle with the bulge. The wholesale lack of physical activity is the 
primary reason for our expanding waistlines.
    When you think about the differences between our society today and 
30 years ago, don't just think about the boom in fast food restaurants. 
Consider the fact that those restaurants put in drive through windows. 
As did banks, dry cleaners and pharmacies. With the convenience of 
drive through eating and shopping came the disappearance of sidewalks 
in local planning and development strategies.
    And 30 years ago, did children come home from school and eat 
cookies or potato chips before dinner? Of course they did! The 
difference is that they consumed those snacks after walking or riding 
their bikes from school. Then they went outside to play with their 
friends, unlike today when they sit on the sofa and play video games. 
For the younger generations, sedentary time in front of a screen has 
become a tremendous factor in the energy equation. Today the average 
child spends 900 hours a year in school as compared to 1,023 hours 
watching TV.
    According to the Archives of Pediatric & Adolescent Medicine, when 
factors that contribute to a sedentary lifestyle are mitigated, body 
weight decreases. So if you reduce the amount of time that a child 
spends in front of the TV, you reduce their Body Mass Index.
    And when you look at the differences between schools today and 
schools a generation ago, don't just focus on the vending machines now 
found in some hallways. What happened to PE? There is only one state--
Illinois--that mandates daily physical education for students. Adding 
to that, a report issued by the International Life Sciences Institute 
stated that about one in four children do not get ANY physical 
education in school.
    It is this phenomenon above all others--the dramatic reduction in 
energy expenditure through daily exercise--that I believe is driving 
childhood obesity trends.
Finding Energy Balance
    Everyone involved in the obesity debate agrees that the core of 
this issue is calories in versus calories out. If we are to develop 
long-lasting and comprehensive obesity policy that will truly help 
American children, we must address BOTH sides of the weight loss 
equation.
    First, it's important to note that the number of calories 
consumed--not the SOURCE of those calories--is what is important in 
this equation. Of course, as a physician, I always promote the 
indisputable benefits of a healthy diet that is low in saturated fats 
and contains lots of fruits, vegetables and fiber. But it has long been 
recognized by the government, medical and nutrition organizations that 
a balanced approach to diet is the right approach, as opposed to one 
that characterizes certain foods as ``good'' or ``bad.''
    In looking at the total diet, we should identify the amount of 
excess calories in an individual's diet rather than declaring that 
individual foods are ``good'' or ``bad.'' Restricting, taxing or 
prohibiting certain foods will almost certainly not work as these 
policies will do little or nothing to help people choose the best foods 
for their own needs.
    Therefore, I believe we must adopt a different approach to 
childhood eating patterns, and part of that approach is common sense 
strategy that includes sensible snacking. If we are to curb childhood 
obesity trends, we must embrace dietary changes that concentrate on 
reducing calories, not just fats or carbohydrates.
    In consultation with Dr. Walter Willett of the Harvard School of 
Public Health, requirements for sensible snacking have been developed. 
They are guidelines that enable an across-the-board reduction in both 
fat and caloric intake:

Requirements for Sensible Snacking
    Serving Size = 1 ounce

    Total Calories < 150

    Total Fat < 5.0 g
    (sun oil, corn oil)

    Saturated Fat < 1.0 g

    Trans Fats 0.0

    Sodium < 240 mg

    But for those looking to single out public enemy number one in this 
war on obesity, it is NOT just food. It is a sedentary lifestyle.
    The benefits of exercise are undeniable. And regardless of weight, 
all Americans must become more active. It's not just about fitness, 
it's about overall wellness. The bulk of scientific evidence concludes 
that abandoning the sedentary lifestyle and following a moderate 
exercise routine will greatly reduce your risk of dying of almost all 
causes and enhance your chance of living a longer, more active life.
    Just think about it: heart disease is the number one killer in 
America. The American Heart Association says that daily physical 
activity helps reduce the risk of heart disease by
    <bullet>  Improving blood circulation throughout the body,
    <bullet>  Keeping weight under control,
    <bullet>  Improving blood cholesterol levels,
    <bullet>  Preventing and managing high blood pressure,
    <bullet>  Preventing bone loss, boosting energy levels,
    <bullet>  Managing stress,
    <bullet>  Improving the ability to fall asleep quickly and well,
    <bullet>  Improving self-esteem,
    <bullet>  Countering anxiety and depression,
    <bullet>  Increasing muscle strength,
    <bullet>  Providing a way to share activity with family and 
friends, and
    <bullet>  Establishing good heart-healthy habits in children.
    That's an impressive list of things that can be addressed simply by 
being more active.
    Physical activity among children is especially important. Studies 
have shown that children who participate in quality physical education 
programs are healthier physically and mentally than children who are 
inactive.
    And for those who are worried that PE crowds the schedules of 
schools desperate to raise academic standards, don't forget the 
research cited at the beginning of my testimony that found that 
students achieve best when they are physically fit.
Suggested Strategies
    As I stated earlier today, I am a long-time proponent of preventive 
wellness solutions. When it comes to our children, I don't believe we 
can simply talk about policies that will help them lose weight. We must 
seek policies that encourage WELLNESS. So let's enact policies that 
will keep children fit and active, and teach them the importance of a 
nutritionally-balanced diet.
    We can empower individuals through education and awareness. We need 
to improve the public's understanding of the consequences of too little 
exercise, too many calories, and unbalanced diets. We should urge 
Americans to regard obesity not only as a cosmetic issue, but also as a 
critical health issue.
    Specifically, we need to focus less on drastic, unrealistic dietary 
mandates that single out specific foods and focus more on a sensible, 
balanced approach to caloric intake.
    We must also motivate Americans of all ages to avoid inactivity and 
collectively get at least 30 minutes of some type of aerobic activity 
daily, as recommended by former U.S. Surgeon General David Satcher. 
Simple activities, such as utilizing pedometers as part of the 
``America on the Move'' program developed by Dr. James Hill at the 
University of Colorado School of Medicine, can go a long way to 
improving personal physical fitness.
    And while this approach of combining balanced and caloric-
restricted diets with physical activity will not be a ``quick fix,'' it 
will produce long-term benefits in the form of improved quality and 
quantity of life.
    Ultimately, individuals have to make their own choices about the 
foods they eat and the level of physical activity they engage in. 
Government can and should provide information to help consumers make 
informed choices. Congress must embrace proposals that are positive, 
comprehensive, and address obesity as an issue rooted in improper 
energy balance, not simply one driven by food. After all, this 
discussion is not simply about weight gain, it's about health. And 
reduced calories and exercise are the keys to good health.
                                 ______
                                 
    Chairman Castle. Thank you, Dr. Cooper.
    Mr. McCord.

    STATEMENT OF TIM McCORD, CHAIRMAN, HEALTH AND PHYSICAL 
    EDUCATION DEPARTMENT, TITUSVILLE AREA SCHOOL DISTRICT, 
                    TITUSVILLE, PENNSYLVANIA

    Mr. McCord. Thank you, Mr. Chairman and Members of the 
panel, for the opportunity to offer testimony here today. My 
name is Tim McCord, and I'm the chairman of the Physical 
Education Department for the Titusville School District in 
Titusville, Pennsylvania. For those of you unfamiliar with 
Titusville, we're a community of just over 6,000 located a few 
miles northeast of Pittsburgh.
    We have all heard the statistics about the health crisis 
facing our nation's youth. Recognizing that the Committee is 
aware of the epidemic proportions of the problem, I'd like to 
focus my remarks this morning on what we've done in Titusville 
to develop solutions.
    At no time in my 25-year career have I been happier with 
what I've been able to accomplish in just the last 5 years. 
Why? Because physical education in my community now means 
meeting the needs of every student, not just the athleticly 
inclined. It means grading students on effort and progress 
toward their goal, not on skills and innate abilities. It means 
using technology and innovative teaching to reach kids where 
they are. It means linking students, parents, school 
administrators, business leaders, and even senior citizens to 
build truly healthy communities.
    And perhaps most importantly, Titusville started a physical 
education program called PE4Life. Our PE4Life Program means 
putting the fun back into sports, fitness, recreation, and 
exercise in a way that inspires all students to want to be 
active every day of their lives.
    For me, this began 5 years ago with a visit to the PE4Life 
Institute in Naperville, Illinois. As one of the Members of 
this Subcommittee, Representative Biggert, knows well that 
PE4Life Institute helps train physical education teachers like 
myself in a new approach to our craft.
    During my initial visit to the PE4Life Institute, I learned 
of technology and techniques that were changing kids' lives. I 
saw how heart-rate monitors could be used to motivate and teach 
young people of all abilities how to do something as simple as 
run a mile. I learned how to teach kids that it doesn't matter 
whether you run a 12-minute mile or a 6-minute mile, as long as 
you meet your target heart-rate zone.
    Technology like heart-rate monitors is the great equalizer. 
With the proper reinforcement in teaching, scores of kids who 
in traditional PE would be turned off were becoming engaged and 
motivated. I was inspired by what I saw, and in 2000, I 
convinced the Titusville School District to implement a fitness 
center and the use of heart-rate monitors in my middle-school 
program just as they were doing in Naperville.
    Within 1 year, my superintendent and school board liked the 
direction the program was heading. As a result, I was able to 
get additional funds 1 year later for a program in the high 
school. We now use heart-rate monitors, pedometers, computer 
fitness assessment software, and exercise bikes in my program. 
Prior to 1999, none of these activities were available.
    Let me mention how the computer fitness assessment software 
works. It measures muscular strength, cardiovascular fitness, 
flexibility, and body composition. Every single Titusville 
student grades seven to 12 receives a pre-test before they 
begin physical education, and a post-test when they complete 
the course.
    We recently purchased a specialized program that allows 
students to incorporate nutrition tracking. Children and 
parents are excited by being able to follow their progress 
through graphs from year to year. And for me as a teacher, this 
software allows us to monitor our school's progress.
    Teaching PE this way is more than just technology and 
gadgets. It's also about choices. We know that lots of choices 
inspire kids to try new things. If you come visit my program--
and I would encourage you to visit us--you will see our 
students doing many things like--they'll be on in-line skates, 
working with weights, swimming, dancing, power walking, cross-
country skiing, rock climbing, and even juggling. You'll also 
see soccer, but probably different than what you're used to. 
Instead of 15 kids per team with one ball, today you will see 
several four-on-four games being played simultaneously.
    How important has PE become to our community? Two years 
ago, the high school principal engineered a change to the 
entire school day schedule so that we could incorporate daily 
physical education. Titusville high school students are now 
required to take physical education every day for all 4 years. 
The class is one full credit, the same as other core subjects 
like algebra and chemistry.
    PE4Life means working together with the whole community. In 
Titusville, the local hospital conducts an annual health fair 
at our middle school. Senior citizens exercise in our high 
school fitness center during the day. The PE department and the 
central blood bank conduct blood drives to support our hospital 
three times a year.
    A local health insurance company donated $12,000 to the 
school for new fitness assessment software, and we're committed 
to sharing this message. More than 100 schools have visited 
Titusville since 2001 to see how PE4Life is delivered in a 
real-life setting.
    In closing, my message is this. Physical education taught 
the right way reaches every child and promotes healthy choices 
and habits for a lifetime. Physical education can reach the 
very students who are most at risk--the overweight child, the 
uncoordinated student, or the shy kid with no confidence--to 
join a team. It is in many ways these kids for whom physical 
education can do the most good.
    We need to develop more PE4Life Programs. Active children 
make good learners. And it seems clear we, as a nation, need to 
invest in physical education today or be burdened with much 
higher costs in the future as generations of inactive kids 
become overweight and unhealthy adults. I thank the Committee 
and look forward to answering your questions.
    [The prepared statement of Mr. McCord follows:]

    Statement of Tim McCord, Department Chair, Physical Education, 
       Titusville Area School District, Titusville, Pennsylvania

    Thank you Mr. Chairman and members of the panel for the opportunity 
to offer testimony here today. My name is Tim McCord and I am the 
chairman of the physical education department for the school system in 
Titusville, Pennsylvania. For those of you unfamiliar with Titusville, 
we are a community of just over 6,000 located a few miles northeast of 
Pittsburgh not far from the shores of Lake Erie.
    I welcome the chance to discuss today the role that schools can 
play in teaching children how to prepare for healthy, physically active 
lives. Improvements in the way my schools provide physical education 
have transformed my community in recent years and there is much 
evidence to suggest that schools across the country can make the same 
progress with the appropriate awareness, commitment and support. In my 
25 years in the business of teaching physical education, I have never 
been happier with what we have been able to accomplish. All this comes 
at a time in our nation's history when the need to teach young people 
healthy habits has never been greater.
    We have all heard the statistics about the health crisis facing our 
nation's youth. Probably one of the most widely used and significant is 
the Center for Disease Control's (CDC) report that the percentage of 
children ages 6 to 11 who are overweight has increased nearly 300 
percent during the past 25 years. These numbers continue to astonish as 
you evaluate older demographics as well.
    As described in the news media these numbers have reached epidemic 
proportions. It is an interesting paradox though. Never before have 
children and youth had better access to health care and have 
experienced lower rates of disease and disability. But the indicators 
of health status linked to physical active are regressing. As a result 
children, for the first time in 100 years, may have a shorter life 
expectancy than their parents.
    The accompanying health problems as a result of this trend present 
a great problem in our society. Diseases like Type 2 diabetes, also 
referred to as ``adult diabetes'', are on the rise among our children. 
It has been estimated that the health care cost of being overweight and 
obese have exceeded $100 billion annually. Also attributed to lack of 
physical activity are approximately 300,000 deaths per year. These are 
preventable, premature deaths. In fact, according to the CDC, physical 
inactivity and bad diet are the second leading cause of death in this 
country, just behind smoking. And if we don't get our kids comfortable 
and committed to daily physical activity and balanced nutrition, these 
shocking numbers will only get worse in the future.
    As a society and as individuals we shoulder a tremendous 
responsibility to teach our children what they will need to enter into 
society as adults. We all want our kids to be smart, we want them to 
know about history, about science, about math, about our physical 
world, our universe and we want them to learn skills so after their 
formal education is complete they can make a living. But we must also 
teach them what they cannot learn in books. Things like character, how 
to be a good citizen, how to handle adversity, how to be good winners 
and losers and how to give something back to their communities. And how 
to be active and healthy for a lifetime.
    I said earlier that at no time in my 25-year career have I been 
happier with what I have been able to accomplish in the last five 
years. Why? Because physical education in my community now means 
meeting the needs of every student, not just the athletically inclined; 
it means grading students on effort and progress toward the goal, not 
on skills and innate abilities; it means using technology and 
innovative teaching to reach kids where they are, not pulling them to 
where we want them to be, only to lose them as soon as the bell rings; 
it means linking students, parents, school administrators, business 
leaders and even senior citizens to build truly healthy communities.
    And perhaps most importantly, Titusville started a physical 
education program called PE4LIFE. Our PE4LIFE program means putting the 
fun back into sports, fitness, recreation and exercise in a way that 
inspires all students to want to be active every day of their lives.
    For me this began five years ago with a visit to the PE4LIFE 
Institute in Naperville, Illinois. As one of the members of this 
subcommittee, Representative Biggert, knows well, the PE4LIFE Institute 
helps train physical education teachers like myself in a new approach 
to our craft. The PE4LIFE organization has a goal of restoring quality 
PE in our nation's schools with a methodology that includes everyone, 
not just the elite athletes. During my initial visit to the PE4LIFE 
Institute, I learned of technology and techniques that were changing 
kids' lives.
    I saw how heart rate monitors could be used to motivate and teach 
young people of all abilities how to do something as simple as run a 
mile. I learned how to teach kids that it doesn't matter whether you 
run twelve minute mile or a six minute mile, as long as you meet your 
target heart rate zone. I can't emphasize enough how liberating this 
was for the kids, and frankly for me as well. Technology like heart 
rate monitors is the great equalizer. The uncoordinated, overweight 
child who may never have had a positive physical experience in his life 
could now find his appropriate pace, and by getting in his target zone 
he could learn how his work rate was perfect for him. And be given 
credit for it! In fact the student running a 12 minute mile within his 
targeted rate could get a better grade than the six minute miler whose 
heart rate was all over the map. With the proper reinforcement and 
teaching, scores of kids who in traditional PE would be scorned and 
turned off were becoming engaged and motivated. This is what excited 
me, because these are the kids we need to reach the most. As a 
professional physical educator, nothing fulfills me more than seeing 
young students figuring out that one doesn't have to be a sports star 
to be a healthy, active, self-assured person.
    I was inspired by what I saw. So in 2000 after operating on a 
$10,000 a year budget, I convinced the Titusville Area School District 
to commit an additional $30,000 to implement a fitness center and the 
use of heart rate monitors in my middle school program just as they 
were doing in Naperville. Obviously, for a small community like mine, 
this was a big investment. Within one year, my superintendent and 
school board saw the kind of results we had hoped for. The program was 
so successful, I was able to get an additional $40,000 one year later 
for a program in the high school. In these two years my curriculum was 
adapted to meet Pennsylvania State standards to teach students the 
value of exercise, nutrition and developing healthy lifestyle habits. 
We now use heart rate monitors, pedometers, computer fitness assessment 
software and exercise bikes in my program. Prior to 1999, none of these 
activities were available. The response by everyone--students, the 
parents and the school administration--has been overwhelming.
    Let me mention how the computer fitness assessment software works. 
This measures muscular strength, cardiovascular fitness, flexibility, 
and body fat composition. Every single Titusville student, grades 7-12, 
receives a pre-test before they begin physical education and a post-
test when they complete the course, whether it be a semester or full 
year. We recently purchased a specialized program that allows students 
to incorporate nutrition tracking into their own lifestyle assessment. 
Children are enthralled by being able to follow their progress through 
graphs from year to year. We send these reports home and parents 
regularly tell me how amazing they find the depth of analysis the PE 
program is offering. Many parents in fact tell how much they learn 
themselves from these reports. And for me, as a teacher, this reporting 
allows us to do group reporting (gender, age, class, height, weight, 
etc), helping to monitor our school's progress while identifying any 
areas for remediation.
    This raises another wonderful development in recent years. After a 
local ABC-TV affiliate broadcast a story about our PE4LIFE program, I 
was approached by a major health care provider in our region, HighMark 
Blue Cross/Blue Shield. They liked what our program was doing and 
wanted to help. When our school district purchased a new $12,000 
computer fitness assessment machine, HighMark matched the expenditure 
and bought a second machine for the school system's use.
    We've since been featured in Newsweek, Time, U.S. News and World 
Report, Teaching Tolerance Magazine and a host of other publications 
and broadcasts.
    One reflection of the PE4LIFE impact on my educational community is 
that we have bucked the national trend and increased the requirements 
for PE. Two years ago, the high school principal engineered a change to 
the entire school day schedule so we could incorporate daily physical 
education. We shortened class by a few minutes, cut between-class 
travel time and added a few minutes to the end of the school day, still 
keeping within the contractual agreement with the teachers union.
    In my community, all senior high school students are required to 
take physical education every day for all four years. This class is one 
full credit, the same as other core subjects such algebra and 
chemistry. Middle schoolers must take at least one semester per year. I 
developed a sixth grade curriculum for wellness education. This focuses 
on exercise and nutrition, preparing students for the comprehensive 
grade 7-12 Physical Education offerings. It has turned out a valuable 
addition, in that it allows us to teach many concepts that later PE 
classes cannot get to due to time constraints.
    Teaching PE this way is more than just technology and gadgets. It's 
also about choices. We know that lots of choices inspire kids to try 
new things. We now offer a wide range of activities. When I was a kid 
and even when my kids went through school, we played football in the 
fall, basketball in the winter and baseball or softball in the spring. 
I am not talking about after school sports here, I am talking about gym 
class. We also threw in from time to time soccer, volleyball, some 
track and field and gymnastics, but for the most part it was team 
sports and the survival of the fittest. Now we offer options for our 
kids so if you come visit my program, and I would encourage any of you 
to come visit us in Titusville, you will see our students on in-line 
skates, working with weights, swimming, dancing, power walking, cross 
country skiing, rock-climbing and perhaps juggling. You'll also see 
soccer, but probably different than what you're used to. Instead of 15 
kids per team with one ball the way we used to set up a class, today 
you will see several 4 on 4 games with no goalie being played 
simultaneously. We use smaller teams so that everyone participates.
    Throughout the year we offer about 20 different activities. Every 
two weeks we allow students to choose a new activity.
    On one of my visits to Naperville, I learned of another benefit to 
their program: an increased ability to partner with the community. I 
would also encourage you to visit the facility in Naperville. As Mrs. 
Biggert knows, PE4LIFE Institute Director Phil Lawler has done an 
amazing job not only in this Chicago suburb but with the many folks 
like myself who have had the opportunity to visit and learn from the 
Naperville program. I learned that the Naperville fire department was 
using the high school as their health club, working out in their great 
facility. In return for the use of the gym, the fire department offers 
free CPR training to the students. So with this inspiration, I have 
gone out to the Titusville community and here is what we have 
accomplished.
    The local hospital conducts an annual health fair at our middle 
school. The fair offers students interactive lessons dealing with 
healthy lifestyles as well as the opportunity for students to 
participate in cholesterol and blood sugar screening. Physicians in the 
community in cooperation with my PE teachers developed a ``Can Do 
List'' allowing those students with medical reasons to participate 
safely while recuperating from their condition.
    Senior citizens from our local center have the opportunity to 
exercise in our high school fitness center during the day.
    The physical education department in conjunction with the Central 
Blood Bank conducts blood drives to support our local hospital three 
times a year.
    I speak to physical education majors at Slippery Rock University 
twice a year. In addition, exercise science majors come to Titusville 
twice during the school year to help us conduct fitness assessment 
using our computer fitness assessment software.
    I mentioned earlier we have worked with a local health insurance 
group who awarded us a grant to help us buy our computer fitness 
assessment equipment.
    And we're committed to sharing the message. More than 100 schools 
have visited Titusville since 2001 to see how PE4LIFE is delivered in a 
real-life setting. Just two days ago, I hosted a group of teachers and 
administrators from Erie County, Pennsylvania.
    Providing daily quality physical education to all K-12 students 
must be an integral part of a national strategy to address obesity and 
reduce health care costs.. Perhaps most appealing is the ease with 
which physical education can be delivered to all students in an 
efficient, cost effective manner. Physical education in schools 
provides an ideal mechanism to promote healthy choices and habits for 
some of the most in need. After-school sports programs can be a great 
source as well but these programs tend to better serve healthy and fit 
young people who want to play sports. This is not the group we need to 
target. Those who may need the exercise most tend to be those who opt 
out given the choice. Physical education in schools however, can reach 
the very students who are most at risk--the overweight child with a bad 
body image, the uncoordinated student who's never been taught skills or 
the shy kid with no confidence to join a team or engage with others at 
recess. It is in many ways these kids for whom physical education can 
do the most good.
    I know this Committee will be looking to develop the next 
generation of policy on for the School Lunch and Breakfast Programs as 
well as the Child and Adult Care Food Program. Proper nutrition is an 
integral part of any national strategy to help our children. I have 
found in the last five years that as my students become more physically 
active and fit they have become more interested in proper nutrition and 
we have incorporated nutrition as part of our overall program.
    As I mentioned earlier in my testimony, I have never been more 
excited about what we are doing in physical education, the new PE and 
the PE4LIFE Institute. I love to come to work and more importantly, my 
students at all levels love to attend my classes.
    It is critical we focus on increasing quality PE and developing 
more PE4LIFE programs. It seems clear we as a nation need to invest in 
physical education today or be burdened with much higher costs in the 
future as generations of inactive kids become overweight and unhealthy 
adults. I would urge the committee in any future legislation to do 
whatever they can to support schools and school districts in our 
country to develop their fitness programs. As I have testified, I was 
able to accomplish a lot with just a small contribution from my 
community.
    Last year my school was awarded a grant from the Carol White 
Physical Education Program at the Department of Education. When 
expended, these funds will allow us to grow our program and provide our 
schools with upgraded equipment and training for our teachers.
    I thank the Committee for this opportunity and look forward to 
answering your questions.
                                 ______
                                 
    Chairman Castle. Thank you, Mr. McCord, we appreciate that, 
and we look forward to asking you questions, and we'll turn to 
Dr. Young now.

STATEMENT OF DR. JUDITH YOUNG, VICE PRESIDENT, PROGRAMS FOR THE 
 AMERICAN ALLIANCE FOR HEALTH, PHYSICAL EDUCATION, RECREATION, 
    AND DANCE, NATIONAL ASSOCIATION FOR SPORT AND PHYSICAL 
                           EDUCATION

    Dr. Young. Thank you very much, Mr. Chairman and panel 
members. We all know America is experiencing an epidemic of 
obesity and increased disease risk due to lifestyles that 
include poor diet and insufficient physical activity. None of 
our states have escaped.
    The public health agenda for our country reflected in 
Healthy People 2010 and Healthier U.S. calls for school health 
education and physical education as priorities in the 
prevention of disease due to these factors.
    While families and communities play an important role in 
the prevention of obesity and other health risks, schools must 
help all children develop the skills and knowledge needed to 
adopt and maintain a healthy lifestyle. The old adage of a 
sound mind and a sound body is even more compelling in our 
contemporary society, where we have engineered physical 
activity out of our lives and where super-sized fast food 
allows us to easily consume more calories than we need or 
spend.
    Lack of physical activity among Americans of all ages is so 
critical it is considered a major health-risk factor. Of 
particular concern is the major increase in obesity among 
children and youth. We also know that children and youth have 
three to 4 hours a day on average of screen time, some of which 
we must switch and devote to more physical activity.
    In order for our children to be healthier, families, 
schools, and communities must act now to support increased 
daily physical activity for all children. We believe that 
providing a physically active lifestyle from the beginning of 
life increases the likelihood that children will learn to move 
skillfully and establish positive feelings about physical 
activity.
    Early motor skills form the foundation for later safe and 
satisfying performance in work, sports, dance, or exercise. A 
growing body of research also confirms that physical activity 
of infants and young children is an important component of 
early brain development and learning.
    Just as children and youth can learn a habit of regular 
physical activity, they can learn to be inactive if they are 
not taught the skills and given the opportunities to be active 
throughout their developing years. Children five to 12 years of 
age need at least 60 minutes and up to several hours of 
moderate and vigorous physical activity every day.
    Quality physical education is the cornerstone in developing 
an active lifestyle. Quality physical education can help 
students to be more active, more fit, and achieve better 
academically. Physical education class can lay the groundwork 
for physical activity, as well as reinforce healthy eating. 
Students also need instruction in health education, daily 
recess periods in elementary school, time for unstructured 
physical activity, and co-curricular programs involving sport 
and physical activity to support healthy lifestyles, not just 
athletic competition.
    School programs should prepare and encourage students to 
participate in school-sponsored and community-based physical 
activity programs. Schools must also provide quality extra-
curricular physical activity options, especially inclusive 
intramural programs and physical activity-based clubs, such as 
dance, hiking, yoga, biking, and so forth.
    These programs should feature a diverse selection of 
competitive and non-competitive, structured and unstructured 
activities, meet the needs and interests of all students with a 
wide range of abilities, particularly those with limited 
interest or skills in the traditional athletic activities, and 
three, emphasize participation and enjoyment without pressure.
    The proliferation of extended day and after-school programs 
provides an important opportunity to incorporate physical 
activity into programs that typically focus on crafts, movies, 
board games, and homework. After-school programs have a unique 
opportunity to increase physical activity and positive social 
interactions among children and youth.
    By allowing the kids to participate and hone their skills 
in active games, they not only gain the opportunity to succeed 
and get fit, but practice the skills that can help them succeed 
in organized sports and activities that encourage interest in 
regular participation. And regular participation in extra-
curricular programs of all kinds is associated with better 
academic performance.
    Both school and community sport and activity programs are 
needed to enhance physical activity. Well-trained, qualified 
coaches and leaders are critical to a child's success and 
positive experiences in sport. And as Dr. Cooper mentioned, we 
are experiencing a shortage in both coaches and qualified 
physical education teachers.
    In summary, to get children more physically active, 
communities must establish infrastructure and a physical-
activity-friendly culture. This includes implementing quality 
physical education programs in all schools with highly 
qualified teachers that can provide a contemporary and 
comprehensive curriculum, such as you've heard about in 
Titusville.
    Make school facilities available in non-school hours, 7 
days a week, year round. Create safe and well-lit walking paths 
and fitness courses on school grounds and other public areas. 
Monitor and restrict sedentary activity: television, movies, 
computer games, web surfing, et cetera. Implement special 
family activities that involve physical activity, and schools 
can play a part in this with in-line skating, bike rodeos, 
family fitness nights, et cetera.
    Provide before- and after-school programs that include 
physical activity opportunities for all ages and all students. 
Offer physical activity programs for school staff so that they 
model physically active lifestyles. And provide appropriate 
playgrounds for children two to 10 years of age.
    Society must play a critical role in helping children be 
more physically active. Parents and other significant adults 
should model active lifestyle. Parents and guardians need to be 
aware of the school and community resources that they can 
choose from to assist children in learning to lead healthy, 
active lifestyles.
    All of us must advocate or take responsibility and seek 
accountability for physical activity in the education of all 
children and youth. Policy-makers, school officials, and 
families must join together to provide a comprehensive 
education of the whole child to prepare each of them for life 
in our 21st century. Thank you very much.
    [The prepared statement of Dr. Young follows:]

   Statement of Judith C. Young, Ph.D., Vice President of Programs, 
American Alliance for Health, Physical Education, Recreation and Dance, 
         National Association for Sport and Physical Education

    As you know, America is experiencing an epidemic of obesity and 
increased disease risk due to lifestyles that include poor diet and 
insufficient physical activity. It is estimated that poor eating and 
inadequate physical activity are costing our country $117 billion per 
year! Children's obesity has tripled in the past 20 years to the point 
that today almost 9 million children between 6 and 19 are overweight or 
obese. No state has escaped! The public health agenda for our country, 
reflected in Healthy People 2010 and Healthier US, calls for school 
health education and physical education as priorities in the prevention 
of disease due to these factors.
    While families and communities play an important role in the 
prevention of obesity and other health risks, schools must help ALL 
children develop the skills and knowledge needed to adopt and maintain 
a healthy lifestyle. The old adage of a ``sound mind in a sound body'' 
is even more compelling in our contemporary society where we have 
engineered physical activity out of our lives and where ``super-sized 
fast food'' allows us to easily consume more calories than we need or 
spend.
    The lack of physical activity among Americans of all ages is so 
critical; it is considered a major health risk factor. Of particular 
concern is the major increase in obesity among children and youth. In 
order for our children to be healthier, families, schools, and 
communities must act now to support daily physical activity for our 
nation's youth.
    We believe that providing a physically active lifestyle from the 
beginning of life increases the likelihood that children will learn to 
move skillfully and establish positive feelings about physical 
activity. Early motor skills form the foundation for later safe and 
satisfying performance in work, sport, dance and exercise. A growing 
body of research also confirms that the physical activity of infants 
and young children is an important component of early brain development 
and learning.
    Just as children and youth can learn the habit of regular physical 
activity, they can learn to be inactive if they are not taught the 
skills and given opportunities to be active throughout their developing 
years. Children five to 12 years of age need at least 60 minutes, and 
up to several hours, of physical activity per day.
    Quality physical education is the cornerstone in developing an 
active lifestyle. Quality physical education can help students to be 
more active, more fit, and achieve better academically. Students also 
need instruction in health education, daily recess periods in 
elementary school, time for unstructured physical activity, and co-
curricula programs involving sport and physical activity to support 
healthy lifestyles, not just athletic competition. School programs 
should prepare and encourage students to participate in school 
sponsored and community based physical activity programs.
    Schools must also provide extracurricular physical activity 
programs, especially inclusive, intramural programs and physical 
activity clubs (e.g. dance, hiking, yoga) that (1) feature a diverse 
selection of competitive and noncompetitive, structured and 
unstructured activities, (2) meet the needs and interests of all 
students with a wide range of abilities, particularly those with 
limited interests or skills in traditional athletic activities, and (3) 
emphasize participation and enjoyment without pressure.
    The proliferation of extended day and after school programs 
provides an important opportunity to incorporate physical activity into 
programs that typically focus on crafts, movies, board games and 
homework. After school programs have a unique opportunity to increase 
physical activity and positive social interactions among children and 
youth. By allowing the kids to participate and hone their skills in 
active games, they not only gain the opportunity to succeed and get 
fit, but practice the skills that can help them succeed in organized 
sports and activities that encourage interest in regular participation 
outside of the program. Both school and community sport and activity 
programs are needed to enhance physical activity. Well-trained, 
qualified coaches/leaders are critical to a child's success and 
positive experiences in sports.
    In summary, to get children more physically active, communities 
must establish infrastructure and a ``physical activity friendly'' 
culture. These include:
    1.  Implement quality physical education programs in all schools 
that provide a comprehensive curriculum.
    2.  Make school facilities available in the non-school hours (6-8 
am, 5-11 pm) seven days a week, year-round
    3.  Create safe and well-lit walking paths and fitness courses on 
school grounds and other public areas
    4.  Monitor and restrict sedentary activity television, movies, 
computer games and web surfing).
    5.  Implement special family activities that involve physical 
activity (in-line skating, bike rodeos, family fitness nights)
    6.  Provide before school and after school programs that include 
physical activity opportunities for all ages and all students
    7.  Offer physical activity programs for school staff
    8.  Provide appropriate playgrounds for children 2- 10 years of age
    Society must play a critical role in helping children to be more 
physically active. Parents and other significant adults (teachers, 
coaches, etc) should model physically active lifestyles. Parents/
guardians need to be aware of the school and community resources that 
they can choose from to assist children in learning to lead healthy, 
active lifestyles. All of us must advocate for, take responsibility and 
seek accountability for physical activity in the education of ALL 
children and youth.
    Policymakers, school officials and families must join together to 
provide a comprehensive education of the whole child to prepare each of 
them for life in the 21st century.
                                 ______
                                 
    Chairman Castle. Thank you, Dr. Young. We appreciate it. 
Now, we'll turn to questions by the Members, and I will start 
the questioning and yield myself 5 minutes to do so.
    And I want to start with Dr. Cooper. You state under the 
first law of thermodynamics that thinking of food as fuel, if 
we eat fewer calories than we burn, we'll have a negative 
energy balance and lose weight. If we eat more calories than we 
burn, we'll have a positive energy balance and gain weight.
    I'm doing this from memory, but I recall seeing an article 
in one of the national news magazines last week saying that 
obesity may be a disease or something to that effect, as 
opposed to a decision that we make in terms of exercise and 
nutrition, et cetera.
    You've had more experience in this probably than anybody in 
the country. Do you agree with that, or do you believe that 
that first law of thermodynamics is pretty absolute in terms of 
intake and out-take with the energy involved?
    Dr. Cooper. It's quite obvious if you run a mile, you burn 
about a hundred calories. If you walk a mile in 15 minutes, you 
burn about 60 calories. To lose one pound, you have to burn up 
3500 calories. So it's pure and simple. It's calories in versus 
calories out.
    It's not low carbs. It's not low fat. It's calories that 
count, whether or not we're going to control obesity in America 
today. I think the passing fad we have now with the low carb is 
something that's going to pass. I don't think long term it 
would be that important.
    But as far as--your question basically was what, Mr. 
Castle?
    Chairman Castle. Well, my question is do you believe that 
your law here is absolutely scientifically correct? That in 
thinking of food as fuel, if we eat fewer calories than we 
burn, we'll have a negative energy balance and lose weight? Or 
do you think there are exceptions? That there are people who 
physically are excepted to that, or there are people who are 
somehow constructed differently, or whatever it may be?
    Because there's a body of thought out there that that may 
be the case. So I don't necessarily agree with that. I'm just 
asking you the question.
    Dr. Cooper. So is obesity genetic versus environmental? I 
would say in the vast majority of cases, it has to be 
environmental. It's not because of some hormone deficiency.
    The question you asked, too, which I forgot, was whether or 
not you considered obesity as a disease? Would you consider 
cigarette smoking as a disease? No. I think obesity is a 
lifestyle. I do not think it can be considered as a disease.
    And therefore, I don't feel that obesity by itself should 
be covered by insurance. I think that rehabilitation programs 
should be covered by Medicare, should be covered by insurance 
as far as cardiac rehab and things of that type. But as far as 
having insurance to cover weight-loss programs, should that be 
considered if we're not dealing with a disease? It's a question 
that I don't have the answer to.
    But, no, I do feel that these are lifestyle situations that 
are not by and large genetic, but they by and large are 
environmental that are based upon the first law of 
thermodynamics. Essentially, what you consume or what you burn 
up is whether or not you lose weight or gain weight.
    What we have had, as I've mentioned, well, like in 1968, 
when my first book was published, only 24 percent of the adult 
population was exercising regularly, like some 100,000 joggers. 
By 1984, it reached a peak of 59 percent of Americans claim to 
be exercising regularly, and over 30 million people were 
jogging. Well, that continued up until about 1990.
    Remember the baby-boomers during that time led this 
exercise movement that resulted in a 48 percent decrease in the 
deaths from coronary heart disease during that time, and also 
an increase of some 6 years in our longevity. But after 1990, 
it all flattened out from 1990. We've had an enormous increase 
in obesity, decrease in physical activity to the extent that 
the instance of heart disease has stabilized. It's not going 
down anymore. It may be going up. And we're no longer 
increasing our longevity.
    So my point is it's a combination of both. It's a 
combination of energy expenditure and energy consumption as to 
whether or not you're going to gain weight or lose weight. It's 
going to have a dramatic impact on the health-care costs of 
America.
    Look what's happened. From 1990, we've gone from $700 
billion to $1.6 trillion the cost of health care. It's going to 
get worse. We had 400,000 deaths in 1990 from cigarette 
smoking, and 300,000 deaths from inactivity and obesity, and 
the projections are by the year 2010, we'll have more deaths as 
a result of obesity and inactivity than we have for cigarette 
smoking. That's the future.
    Chairman Castle. Let me build on that. I'm going to ask 
this question of all the guests. I'm impressed, Dr. Young and 
Mr. McCord, by what you've both said, and Mr. McCord, in your 
case, what you've gotten implemented in Titusville. And I worry 
that you're a little bit like the gentleman who taught physics 
to the kids in LA. You know, he could do it, but I'm not sure 
everybody else can do it. And that's my question, but it's a 
little broader than that.
    And I'll start with Dr. Young, and you all take a shot at 
this, if you wish. I don't think there's any disagreement up 
here or down there or in this room, or perhaps in America at 
large, that we do have a problem with kids.
    I'll tell you how it was called to my attention, by the 
way. I went out to play golf with my wife 1 day, and they 
matched us up with a couple of English fellows, who were jovial 
guys. One of them was a minister. And we got talking after a 
while, and they got laughing, and we said, ``What are you 
laughing at?'' And they said, ``We're laughing at how fat 
Americans are.''
    And it went on for about three or four holes, which is an 
hour or something like that, and, you know, they just kept 
kidding about it. And they'd been in America for about 2 
months. And it really hit me that, you know, somehow we're 
different in this country than perhaps we are in other 
countries. And these were polite people. These were not rude 
people. They were just highly amused by this.
    We talk about changing lifestyles. I mean, there's no 
question about it. You know, you've all hinted at it or stated 
it one way or the other. I mean, kids are coming home--well, 
first of all, they're not getting physical education in school. 
They may not be eating the right thing at school. They may be 
coming home and eating the wrong thing. But they're certainly 
not getting the exercise, and they're not getting out and doing 
things. They're playing games at home. And no matter how you 
look at it, they're consuming more calories. They're burning 
off fewer calories, and kids are definitely a lot more 
overweight than they were earlier. And statistics also show us 
if you're overweight early, you're going to be overweight 
probably most of your life. It's going to affect your health. 
And I'd love to ask questions about mental health, as well, 
which, you know, I don't have time for in this round, at least.
    But it's going to impact you. So my question to you is not 
the evidence that this is what's happening, but how do we 
change it? How do we take the experience in Titusville, for 
example, and spread it across the country? How do we take the 
message that you're delivering today--any of you are delivering 
today--and make sure that the families and the schools get it 
enough to actually fundamentally make some changes?
    It's not that easy up here to just pass laws right away and 
get this done. It's more complicated than that. It's very 
difficult to change lifestyles. I'd be interested in any 
suggestions you have. And we'll just go across from my right to 
left, and we'll start with Dr. Young.
    Dr. Young. Well, there have been several surveys recently 
by various groups. We've done some. Robert Wood Johnson 
Foundation has done some about what parents think about this, 
and parents are concerned about this. Parents do expect and 
want physical education and health education and healthy eating 
reinforced in school.
    And I think that schools in general have a big opportunity, 
as well as a responsibility, because all kids go there, to 
affect our culture and our perception and our beliefs and our 
activities around these lifestyle kinds of things. Kids go home 
from school in Titusville, and they talk to their parents 
about, you know, the kind of program they've had in physical 
education, and they say, well, let's go do some of these things 
on our outside time.
    And I think the program at Titusville and some of our other 
quality programs around the country, the Naperville Program, 
and some of our national teachers of the year are conducting 
programs that can give all the rest of us hope that this is 
possible to do, and that, you know, we don't have to abandon 
academics. We don't have to neglect other things to have good 
health education and physical education programs in the 
schools.
    And that we can prepare highly qualified teachers, both 
staff developing the ones that are here now, as well as 
preparing the ones to come in the future, to do this work in 
the schools and help all kids.
    Chairman Castle. Thank you, Dr. Young. Well, Mr. McCord, 
you've gotten it done. How do we do it in other school 
districts?
    Mr. McCord. I guess the way I look at it is if we can do 
it, anybody can do it. I come from a small community of only 
6,000 people where the economy is not good any way you look at 
it. And to go to the PE4Life Institute and take those ideas and 
come back to a small community like Titusville and try to 
replicate what they have done, in my eyes, it's not--it's just 
remarkable.
    But it can be done in all schools. And what we've done is 
we've opened our doors to other teachers and other 
administrators to come in and take a look at what we do. And we 
encourage them to please come to Titusville and please go to 
Naperville to the places that have PE4Life institutes and get 
the training to take back.
    I'm very fortunate I have great administrative support in 
my school district. There's no doubt about that. But that being 
said, I think that the concept of developing quality physical 
education programs just by going to see other school districts 
like ours and like Naperville can be done.
    Chairman Castle. Thank you. Dr. Cooper.
    Dr. Cooper. A couple of comments. One is that obesity is 
now globesity. It's not just a national problem; it's an 
international problem. A recent release from WHO, we have an 
estimated 1.6 billion people worldwide who are overweight. 
About 850 million suffer from malnutrition. So it is a 
worldwide problem.
    Secondly, I would say that the practice and principles that 
we've had at the Cooper Aerobics Center in Dallas for the last 
33 years have been successful in lifestyle changing, using a 
four-step approach. No. 1 is a very thorough comprehensive 
evaluation. No. 2, making an educational, motivational 
experience. No. 3, give them an implementation program for how 
to change their lifestyle, whether it's quitting smoking, 
losing weight, getting in shape, that is safe, effective, and 
realistic. And No. 4, just get them back for a follow-up 
evaluation.
    That four-step approach has been highly successful. We 
estimated 60, 65 percent of the 80,000 patients who have come 
through our clinic have reached the goals we've established for 
them. That can be done in children.
    As far as the evaluation is concerned, a recent study of 
adults asking them the question whether children are 
overweight, and the vast majority said no, because they 
compared their son or daughter with somebody else down the 
block, and they're the same weight. So they weren't overweight.
    Parents are ignoring the fact--the observation--obviously, 
that our children are overweight. So we have to do something to 
change that.
    One thing we're doing in Dallas, and we're recommending 
that health clubs around the country do this, with our Cooper 
Fitness Center being a very successful health club, is we're 
adopting a school that my staff will volunteer their time to go 
down and work with those students at Marino Grade School -- 
it's a Latin American school in Dallas where 95 percent of the 
children are on the--have their meals paid for. And so my staff 
is going down there to work with that school complimentary to 
try to bring in good physical education where they don't have 
physical education teachers.
    And I'm challenging other health clubs in America to do the 
same thing.
    Chairman Castle. Thank you, sir. Let me turn to Ms. Woolsey 
now. I'll yield to her for 5 minutes.
    Ms. Woolsey. Thank you, Mr. Chairman. I'm assuming we're 
going to have more than one round.
    Chairman Castle. You can have as many rounds as you want.
    Ms. Woolsey. OK.
    Chairman Castle. We may not all be here, but you can have--
    Ms. Woolsey. Well, anyway, I want--before I ask questions, 
I want to go on record in response to something Dr. Cooper said 
about charging a little bit more for the school food programs 
so that we can afford the physical education programs.
    I want to be on record saying I think every child in this 
country in school--elementary through high school--should be 
offered a free breakfast, no matter their economic status. And 
I believe that, because this is the beginning of getting them 
ready for testing, attendance, discipline, the whole thing--
they're healthier--and a result of that, the effect of which 
makes us a healthier nation.
    We have to decrease diabetes and disease in our kids. We 
have to know what obesity is doing to our work force, to our 
health programs. The idea that we wouldn't have preventive 
programs, I think, is shortsighted, and pay for them.
    Prevention saves us money in the long run. So that's--I'm 
on record there, so you know I'm all the way as far as this 
program is going to have to include nutrition programs.
    So, now, Dr. Cooper, I would like you to be on record, so 
that we all know what we're talking about, so that the people 
here know that you're a spokesman for Frito-Lay, owned by 
Pepsico. Because I think that's important. It's important--
you're the best on exercise. But when you answer questions 
about what should be in the vending machines, I think you must 
be a little bit kind of pushed and pulled on that one.
    So here's something, and I have a question. If cheese fries 
with ranch dressing, one serving, which is 3,010 calories, 
would require 10 hours and 40 minutes of walking briskly in 
order to offset that, we cannot--what does that say to you when 
we look at what we're offering our children? I mean, there's--
how can we have enough exercise to offset offering them poor 
choices?
    Dr. Cooper. Ms. Woolsey, to answer your question, we can't, 
and that's why you're correct in assuming that I am working as 
a consultant with Frito-Lay and the food industry in general in 
trying to encourage them and motivate them to provide better 
products for the children.
    For example, as a result of the work we've had with Frito-
Lay over the past 2 years, we've now eliminated some 55 million 
pounds of trans fats out of the American diet over the next 12 
months. Yet the work from Harvard School of Public Health, 
published in 1997, in internal medicine is correct that for 
every 5 percent you increase saturated fats in the diet you 
increase the instance of coronary heart disease by 17 percent. 
But every 2 percent increase in trans fats in the diet 
increases the risk of heart disease by 93 percent.
    If we could eliminate trans fats from our products in 
America, that in the long term could have a dramatic effect in 
reducing the frequency of heart attacks and strokes.
    Ms. Woolsey. OK. That would help.
    Dr. Cooper. Now, one of the major problems with trans fats, 
of course, is the french-fried potatoes, because that's the 
largest source. Any time you hydrogenate even a vegetable oil 
to convert it into a solid, as we say, it lengthens the shelf 
life but shortens your life--
    Ms. Woolsey. Right.
    Dr. Cooper. They do that because of cost and because of 
taste. That's having a dramatic impact as far as heart 
disease--
    Ms. Woolsey. Well, until we've got all of that under 
control, Dr. Young, what should we be putting in our vending 
machines, and who do you believe should set the standards?
    Dr. Young. Well, I think definitely there should be healthy 
choices in the vending machines in this whole balance. If 
someone is eating 30,000 calories a day because they had 10 
servings of cheese fries with ranch dressing or whatever, there 
is no way that they're going to--that exercise is the ultimate 
solution. There has to be, you know, action on both ends of the 
equation.
    But the amount of expenditure of activity in one's daily 
life and then what we should eat to fuel that is important for 
children to learn about in both health education and be 
reinforced in physical education. So the--having an active 
lifestyle and reasonable amounts of activity in one's daily 
life that would spend a reasonable amount of calories for 
whatever it is that they need to do, is what they need to 
understand about and learn about, and it's fairly complicated, 
as these last few minutes have indicated.
    If you're working in boundary waters in the winter on a 
dog-sledding trip, you're expending 9,000 calories a day. Well, 
most of us here are probably expending two--1500 to 2,000 
calories a day. And so how we eat in relation to what we do is 
the fundamental thing that we need to be teaching children 
about and how much different kinds of activities demand and so 
forth.
    Ms. Woolsey. And may I ask one more question, Mr. Chairman? 
So, Mr. McCord, given that there's going to be--kids are going 
to eat--thank heavens. Even if they eat healthy, how much 
physical activity should be part of a daily lifestyle?
    Mr. McCord. Could you clarify that for me a little bit, 
please. As far as physical education is--
    Ms. Woolsey. Well, giving a kid--I don't know--when I was 
young, I never stopped moving, so--I still don't. But given--we 
know their lifestyles. We know they love these games where they 
sit and play them.
    But how much physical activity if they just eat a regular, 
decent diet with some sugar and some salt and, you know, day in 
and day out but not just all fast foods and things? What should 
be a regular routine?
    Mr. McCord. Well, you're correct in that kids are not as 
active as they were when I was young, also, but I would have to 
turn that over to an expert like Dr. Cooper, who understands 
all the ins and outs of that. I'm not really comfortable in 
being an expert in that particular and specific area.
    Ms. Woolsey. OK. Let's go on to the next round, and I'll be 
back, Dr. Cooper.
    Dr. Cooper. Could I respond to that--
    Ms. Woolsey. Oh, yeah, if he'll let us.
    Dr. Cooper.--if I'm allowed to.
    Ms. Woolsey. OK.
    Dr. Cooper. The study we published in 1989 following 13,400 
people for a period of 8.6 years published in GAMA has been 
classified as the landmark study of the century, answering the 
question how much exercise is enough.
    It's the reason why former Surgeon General Satcher in 1996 
said, collectively, we should get 30 minutes of activity most 
days of the week.
    Ms. Woolsey. Adults or children?
    Dr. Cooper. This is both. This was adults, primarily, but I 
can assure you children will get the same results. We followed 
it through on that, and now translated to as follows: If you 
would walk two miles in less than 30 minutes three times a 
week--this is children or adults--you can walk that fast two 
miles in 35 minutes in four times a week or two miles in 40 
minutes, which is standard walking speed at three miles per 
hour, and do it five times per week or--
    Ms. Woolsey. Well, yeah. But, Dr. Cooper, what if you've 
had a quarter-pounder with cheese, a super-size fries, and a 
super-size Coke that day?
    Dr. Cooper. Well, preferably, if you exercise vigorously 
before you do that, you're going to suppress the appetite and 
won't be eating those, anyway.
    Ms. Woolsey. Well, that would be good.
    Dr. Cooper. But the point is that our studies show in 
adults at least by meeting one of those standards it can 
increase your life span for up to 6 years and decrease deaths 
from all causes; heart attacks, strokes, diabetes, and deaths 
from cancer by 58 percent. And that's been published in peer-
review journals.
    So I think the answer is collectively 30 minutes of 
activity most days of the week would have a tremendous impact 
on health in American children and adults.
    Ms. Woolsey. OK. And, Mr. Chairman, in the next round my 
question to each of you will be why isn't that happening.
    Chairman Castle. Thank you, Ms. Woolsey. We'll turn to Mr. 
Osborne now.
    Mr. Osborne. Thank you, Mr. Chairman. It's nice to see Dr. 
Cooper. We've had a long-term relationship, and I appreciate 
all of your work. One thing that I noted--I think I caught in 
your closing comments was something about with an additional 
expenditure of maybe five to 10 cents per meal we could do a 
better job in school nutrition and, of course, making PE 
mandatory.
    And as all of you know, the big obstacle we're facing right 
now is time and finances. You know, when you talk to school 
people, they say, well, you put this No Child Left Behind on 
us, and we're doing all this testing, and we don't have time 
for PE. And our budgets are constrained, and we can't do any of 
these things.
    And so I'd be interested in--maybe first Dr. Cooper and 
then Mr. McCord, if Dr. Young has anything to add -- simply to 
give us your thoughts as to can we do this without adding cost. 
In other words, do we really need to increase five to 10 cents 
per meal? And maybe Dr. McCord can--or Mr. McCord can tell us a 
little bit how you're implementing your PE program and where 
the money is coming from and what the attitude of your 
administration is.
    So any thoughts you'd have, because that will be the nuts 
and bolts of what we're faced with. Most people would agree 
with everything we're saying here today. But when it comes down 
to paying for it and finding the time to do it, then we're 
going to have all kinds of barriers are going to be thrown up 
to us by people in the schools.
    Dr. Cooper. Thank you, Mr. Osborne. I have worked closely 
with the American School of Food Service Association. They're 
the ones who provide the lunches and breakfasts for over 28 
million students every day. They have 28 million sales every 
day.
    And they've advised me with the five cents added onto 
breakfast and the 10 cents onto their lunch meal that they 
could bring in more fruits and vegetables into the diet of the 
American children.
    I have a syndicated national radio program. One of our 
models is ``five is fine, nine is divine''--the number of 
servings of fruits and vegetables we should be consuming daily. 
The average American adult, 3.1. The average American teenager, 
1.6. That's a problem.
    So somehow, even if we don't have the additional funding 
for that breakfast and that lunch meal--if we can't add 
additional funding--if we can change the composition of the 
meals to include more fruits and vegetables, we'd be way ahead. 
That's one thing we could do.
    But even though I understand the budget constraints that 
are making it difficult to add the additional funding for food 
service, if we can just somehow get physical education back 
into schools, because I said it clearly is indicated in all the 
studies. If we get even the heavier child to exercise 
regularly, in the long term it reduces their problems.
    So we have a choice here. We don't have the funding to 
change the meals, which I hope that we can, at least those of 
us working as consultants in the food industry can provide 
better products for these kids to select; put better products 
into the vending machines, educate and motivate them somehow to 
select these products.
    We're talking about everything from an incentive of cutting 
off a logo on baked Lay-type product and sending it in to get a 
pedometer. Something of that type they can do without any cost. 
Things of this nature. There's all sorts of things that we 
could do to motivate those kids.
    But I realize the constraints from an economic standpoint, 
but I realize it wouldn't take that much if we can get 
corporations to promote this aspect I'm talking about. Get 
corporations like Frito-Lay, as we're doing now, to try to 
educate the American public. Full-page ads in U.S.A. Today and 
the New York Times, encouraging people to look at labels. Start 
reading labels and look to see.
    I compliment the Congress on making it mandatory by the 
Year 2006 that you must have on the label you must have how 
many trans fats that are in there. I can't understand why it 
took you so long to eliminate Ephedra, which we've known has 
been a killer for years. But I compliment you, at least, making 
a step in proper direction and try to provide us better foods.
    And so these are the things--the comments that I would 
make. But if we'd just get more fruits and vegetables back in 
the diet. If we have additional funding. If we can't do that, 
at least, get PE back in and encourage that.
    Mr. McCord. Mr. Osborne, we were able to implement our 
program in Titusville largely because of the administrative 
attitude that we can still accomplish the goals of No Child 
Left Behind and still educate the total child. Our 
administration believes that completely, and as a result of 
that, we changed our entire school day; the whole set up of the 
day to accommodate our move to daily physical education.
    We cut the travel time between classes. We added a little 
time at the end of the day, and we cut the class time from 43 
minutes to 40 minutes to allow us to do that. It not only gave 
us daily physical education it gave us more flexibility in the 
schedule for other classes.
    And we did all of this--you mentioned cost. We did all of 
this at no cost to our school district. We were able to keep 
the same amount of teachers, same equipment. All the teachers 
that we had at that high school were able to pick up the class 
load of having daily physical education.
    Mr. Osborne. Thank you. I think my time is up. I just would 
like to underscore one thing that many of you have mentioned, 
and that is the correlation between physical activity and 
intellectual development, which seems to be lost in much of our 
academic community. And I think that's a very good selling 
point in terms of the worth of PE in addition to the health 
aspects. But just the intellectual component. Mr. Chairman, I 
yield back.
    Chairman Castle. Dr. Young looks like she wants to say 
something.
    Dr. Young. If I could make one comment. I don't think that 
we can bring back all the physical education that we need to 
bring back with no cost, but it's pay now or pay later if we 
can't educate our children about these things. But we need 
highly qualified--more highly qualified teachers if we're going 
to implement physical education in some places where there is 
none.
    They had some in Titusville, and they expanded it, but if 
there is none there, you cannot start a quality physical 
education program without teachers. So there is some money 
involved, but we will have these escalating costs on the other 
end if we don't figure out how to pay for it.
    Chairman Castle. Thank you, Dr. Young. And I yield this 
time 5 minutes to Ms. Majette.
    Ms. Majette. Thank you, Mr. Chairman, and I thank the 
witnesses for being here today and for all that--all of you are 
doing to promote a healthy America. And I certainly appreciate 
the challenges that we have. I know in my life I face that 
challenge continually in trying to balance what I do in getting 
exercise and eating right, and I know that we continue to have 
that challenge, particularly, in our schools.
    And I agree with you, Dr. Young, that we either pay now or 
pay later. And, certainly, Mr. McCord, you've got a great 
example of how you can do that, and I think it's really about 
setting priorities. And we, as a community and as a nation and 
as a government, we need to set as a priority--priority one--to 
do the things that will insure we have a healthy and well-
trained citizenry, well-trained workforce, and that begins at 
an early age with our children.
    In terms of the--I guess of all the different pieces, I 
think you all have--you all have really articulated that very 
well, but from my experience and even in talking recently to 
some fifth graders at East Lake Elementary School, when I was 
trying to describe to them what it is I do as a Member of 
Congress and we started talking about school lunches, as I 
talked about the reauthorization of the school lunch program, 
and it was interesting as we outlined--I asked them to talk 
about the things they were getting in school--in the school 
lunch and breakfast.
    And them I asked them, well, what is it that you would like 
to have that you don't have now? And they said, ``Kiwis, plums, 
and strawberries.'' I mean, nobody asked for anything sweet or 
sugary or fattening. And I thought it was remarkable that these 
young folks get it, and that what they're asking for is what we 
want to give them or what we ought to give them, even it costs 
a little more, because we're going to pay for it later.
    And so I guess my question to Mr. McCord would be do you 
see other ways that we can do this without a substantial 
additional expense? I mean, do you think that there is some 
other ways of implementing the kind of program that you have 
implemented without it costing--you know, ``costing a lot of 
money.'' Or do you think that that's not something we can do?
    Mr. McCord. Well, as I stated, in our case it did not cost 
anything, but the simple thing of--if schools have physical 
education, the simple way of making sure that your students 
participate in smaller group activities cost nothing to a 
district. Just to make sure that they are participating at a 
high level in that respect. So it can be accomplished that way.
    But as far as a total physical education program, I don't 
know of other ways, other than what we have done in Titusville.
    Ms. Majette. And that's something that you think can be 
replicated in places?
    Mr. McCord. I know that it can be replicated--
    Ms. Majette. Other places.
    Mr. McCord. I've seen many teachers from other school 
districts, from not just around Pennsylvania, but from other 
parts of the country, who have visited Titusville and taken our 
concept and the PE4Life concept back to their district and done 
the same thing.
    Ms. Majette. Dr. Young.
    Dr. Young. I think there's two levels. One is making sure 
that the physical education programs that we do have in place 
are as good and high quality as they can possibly be, and these 
kinds of activities of increasing and adjusting and changing 
the kinds of activities and the curriculum and so forth are 
things that can be done without great expense, and that would 
be important in many places to do that.
    The putting physical education in place when it doesn't 
exist at all is a lot harder to do without any cost.
    Ms. Majette. Dr. Cooper, let me ask you--and I -- when we 
talk about costs, do you really think that it's a matter of 
just the schools having to bear that in order to get people to 
get the 30 minutes of exercise that at a minimum go to improve 
the quality of life that we have at this point?
    Dr. Cooper. Let me make a couple of comments. One is that 
in the State of Texas a lot of children the only good meal they 
get per day is a school lunch. A lot of those is school 
breakfasts too. And some kids in South Texas it's probably the 
only meal they get per day. So we really have to concentrate. 
Whatever is necessary to get the best possible food intake in 
that period of time that we can.
    Secondly, as far as the cost, of course, in Texas right now 
we have an economic problem with schools' funding and we can't 
get enough money for physical education teachers. So what we're 
looking at too is the America-on-the-Move concept by Jim Hill 
from up in Colorado.
    It was mentioned before. The use of pedometers and just 
trying to get a little inexpensive pedometer and try to get 
children to get at least 10,000 steps per day. That's not a 
formal physical education program. It doesn't cost much, and I 
think even corporations would be willing to provide that for 
students and just get this started.
    It's a national movement. It's worked very well in Denver, 
Colorado. We hope that it will be moving around the country.
    So my message is the first step in improving fitness is to 
avoid inactivity. You don't have to work in the target heart-
rate zone like we thought you did in the past to get health 
benefits. If you just avoid inactivity, you start getting 
substantial benefits. We can prove that.
    But the question is how do we get that message across to 
the students? How do we get it across to the parents? You in 
Congress can help us with that. With national incentives or 
promotions. Corporations can do that. It doesn't take a lot of 
money to do that. It's just an attitude that has to change.
    It's of critical importance. At the present time we got 
64.5 percent of our adults who are overweight, of which 31 
percent are obese. That's been steadily going up since 1991. I 
don't see any optimistic future that's going to get better for 
the adults.
    We've already got 20 percent of our kids are overweight. If 
we can keep that level as these kids become adults, we will win 
in the long run.
    So my major emphasis now is on obesity in children. We've 
got to get that controlled now. Education, motivation, 
implementation for programs that work.
    Ms. Majette. I think it's important that we try to educate 
the parents at the same time that we're educating the children. 
And I just want to make one other point. I represent the 
district in which the CDC is located, and, of course, in your 
testimony and in the materials there's of lot--a good bit of 
discussion about the work that the CDC does. And I guess I 
would suggest as a matter for--perhaps for this Congress to 
address is to look at the ways that we can help do just what 
you described by investing in infrastructure.
    By making it easier to have sidewalks that lead to the 
schools and in neighborhoods, and I think that makes it easier 
in a pretty inexpensive way of encouraging the kind of 
exercise--not just thinking, oh, I have to go exercise but, oh, 
I can walk to the grocery store safely, because there is a 
sidewalk from here to there and it's a mile, and I don't have 
to get in my car, and I don't have to buck the traffic in order 
to do that.
    And doing those kinds of things, I think, that's another 
role that government can play in terms of helping communities 
meet the challenges that we have with respect to getting 
exercise and teaching that--getting that into everybody's head 
that it's a good thing and make it easier to do that.
    Chairman Castle. Thank you, Ms. Majette.
    Dr. Cooper. Let me encourage Congress to continue the Rails 
to Trails Program. That's something that's been funded in the 
past, and they're considering eliminating that, because that's 
what you're talking about.
    Ms. Majette. Yes.
    Dr. Cooper. Converting rails into trails.
    Chairman Castle. Thank you, Ms. Majette. I'm going to have 
to go to another meeting with, actually, the Secretary of 
Education. Just before I turn to Mr. Keller, if I may, assert 
the Chairman's privilege here. I want to get in one quick 
question at this point. And this is a little bit off of this 
subject, which is the subject of exercise.
    You said something--you said, Dr. Cooper, that Mr. Osborne 
also referenced, and that was if we put an extra--I don't 
remember exactly what you said, so you correct me if I say it 
wrong--but the extra five or 10 cents into school meals--school 
lunch, I guess, primarily--that we could, I guess, improve the 
healthy quotient of that.
    I must--I'm not going to argue with you, because I don't--
this is more antidotal than it is real knowledge. And I believe 
that our nutrition programs are good programs. I believe a lot 
of the people involved in these programs do a good job.
    But I got to tell when I go out to the schools and I see 
what's actually happening it makes me question whether what 
we're saying and writing in laws and what is being purchased is 
actually being consumed. I see a lot of product in the 
cafeteria and a lot of it is very healthy and very good. And 
then I see what the kids are actually eating, which ends up 
being pizza often instead of the green vegetables that are 
there.
    It bothers me a great deal. My sense is--first of all, we 
don't have the money, so we can forget the five or 10 cents for 
the next couple of years. But, second, even if we did have the 
money, I seriously question what is happening between the 
mechanisms and the laws and the purchasing and the nutrition 
people and what is actually being done in the cafeterias and 
then consumed by these kids.
    I think there's a gap there or a flaw there if I might say. 
So I'm not arguing with you. Of course, you could buy healthier 
food, but is somebody going to make somebody eat it is the 
problem I have with it.
    Dr. Cooper. Yes, sir. There is no answer to that question 
either, because you got to educate and motivate these kids to 
select these products. I've been told by the American School 
Food Service Association that with the additional five to 10 
cents they could buy more fruits and vegetables.
    Now, whether they're buying those now and they're not being 
consumed I can't answer that question. But I agree it's an 
educational process. We have to educate and motivate the kids 
to select these changes, and that's why I've spent my career in 
trying to motivate and educate people to exercise, to select 
proper foods and diets. And we get a great deal of success.
    But it has to be a matter of discipline, something that 
we're going to accept responsibility for ourselves. And I tell 
my audience this in my presentations, that you can't expect the 
government to be responsible for your health. You can't expect 
the physician to be responsible for your health. You're going 
to have to be responsible yourself. If we can't accept that 
attitude in America, whether it's our kids, whether adults, 
we'll never get ahead in this field. But we've got to put the 
burden of responsibility back on the individuals.
    I wish I could answer the question regarding whether I can 
motivate these kids in the schools, select the products that 
are available for them on the cafeteria line. I think that's an 
educational process that we need to do. That's going to be my 
responsibility. That's going to be the parents' responsibility. 
And your responsibility too.
    But if you can help us before you leave, sir. If you can 
help us at least in keeping the Rails-to-Trail Program alive, 
keep it funded, I think that's a great move in America today.
    Chairman Castle. I don't have a problem with that, if we 
have the money.
    Let me at this time--Mr. Keller has been very patient. He 
was here when I walked in waiting for his turn, and I'd like to 
yield to Mr. Keller for 5 minutes, and Mr. Osborne will assume 
the Chair. But thank you all very much.
    Mr. Keller. Well, thank you, Mr. Chairman. In your opening 
remarks, you referred to Dr. Cooper as a legend. And I just 
want to go on record as a seconding of those sentiments.
    I remember back in 1982, sitting in my freshman health 
class at East Tennessee State reading about Dr. Cooper as the 
father of aerobics. And it's interesting we meet today, because 
I'm sort of the prodigal son of aerobics. And if I'd known you 
were going to be here, I would have kept my New Year's 
resolution, I assure you.
    In your testimony, you mentioned that Americans should get 
30 minutes of some type of aerobic activity every day. What is 
your personal aerobic activity of choice?
    Dr. Cooper. Well, I'm glad you asked, and I'm glad you made 
that comment. I appreciate that about you, your personal 
interest in aerobics.
    Yes, I've been exercising regularly now since 1960. I'll 
soon be 73 years of age, and still exercise 12 to 15 miles a 
week. I'm happy to say it's an act of God so much as an act of 
man, I'm sure, but I have not missed a day from work because of 
illness since 1956, when I had an appendectomy. I'm still 
working 60 to 70 hours a week.
    I'll be coming back on the 22nd of February to speak to all 
the Governors here in Washington on the subject of aging. 
Because aging, that's where most of our health care costs come 
from. I'm convinced, and we have data to show this, that you 
can cut the cost of health care by at least 53 percent if you 
keep people in shape as they get older. That's not just 
extending life; it's quality of life. And that's what we want 
in this country anyway.
    We've found--and Mr. Osborne, you know, having been to the 
clinic--that a lot of patients come from all over the country 
to our clinic. We now discover that men who have been coming to 
our clinic for 20 years or longer right now have an average 
life expectancy of 82 to 85 years. The average American male 
born today is 73 years.
    I'm convinced, with just a little lifestyle changing, we 
can change the whole picture of health, health costs. We're not 
going to reduce exponentially the cost of health care. But we 
can stabilize it, and we'll be way ahead. The only way we can 
do this is by personal responsibility.
    Yes, I still engage in my 12 to 15 miles a week, more 
walking briskly now than running at my age, because I'm 
listening to my body. If you start breaking down, whether it's 
knees, ankles, or hips, don't ignore that. But change.
    But you can't store fitness. Fitness is a journey, not a 
destination. You've got to keep it up the rest of your life. 
You've got to keep that in mind. And by following these 
concepts, the quality, the quantity of life is unbelievable.
    Mr. Keller. We hear a lot of people talk about briskly 
walking 30 minutes a day versus jogging. I'm sure you could 
burn more calories jogging. But is there a substantial health 
difference between the two?
    Dr. Cooper. Well, as I mentioned, the surprising thing is 
our study as of 1989 showed that you get almost the same 
benefit from walking briskly as you get from jogging. Our 
studies clearly show, too, the faster you walk, the more it is 
like jogging.
    For example, if you can walk at a 12-minute mile pace, 
that's equivalent to running at a 9-minute-per-mile pace, and 
you have one-tenth the injury problems. That's a very fast 
walk. That's aerobic walking, five miles per hour. But the 
injuries go way down when you walk. The threshold is a 15-
minute mile, four miles per hour. If you can walk that fast, 
you get tremendous health benefits.
    So I would say as the population in this country ages, 
don't try to continue with your jogging. Don't feel that's 
mandatory, it has to be done. Just don't stop the transition to 
walking. And you get your 12 to 15 miles a week of walking, and 
you'll still get great aerobic benefits.
    If you were to walk three miles in 45 minutes twice a week, 
that will give you at least a 58 percent reduction in death 
from all causes, and a 6-year increase in longevity. That's 
just twice a week, 45 minutes. That's fast. But again, that 
tells you what our study is clearly--our research is showing 
and published in peer review articles.
    Mr. Keller. Let me ask you some questions about personal 
responsibility. I know you think the government should provide 
information to help consumers make informed choices, and I 
share that.
    But just an objection. The majority of meals in this 
country are eaten at home. And in 1990, we had the Nutritional 
Labeling and Education Act, where it tells people when they go 
to the grocery store exactly how many calories and carbs and so 
on and so forth. Yet since 1990, we've still had a dramatic 
increase in obesity, despite telling them this information.
    So ultimately, that tells me that personal responsibility 
is the key, because the individual has to make their own 
choices about the food they eat and the level of physical 
activity they engage in. What do you think of that?
    Dr. Cooper. Well, it's documented in the study that 5 
percent of meals in America are eaten at home. You're exactly 
right. Only 25 percent are eaten out. But again, what do the 
people eat at home that they buy at the stores? They pick up 
the snacks, whatever it may be.
    So one thing our goal has been not only to provide better 
products in the vending machines for the children in school to 
eat, but encourage the American adults to start reading labels 
and start looking at such things as what we've now established 
in conjunction with Harvard School of Public Health and Dr. 
Walter Willett, that a sensible snack, one ounce--this is in my 
prepared report--it should be less than 150 calories. The total 
fat should be less than five grams, saturated fat should be 
less than one gram, trans fat should be zero, and sodium should 
be less than 240 milligrams, making this as a standard.
    This has been recommended by Dr. Walt Willett and myself on 
snacks, having a national standard that you put on labels, and 
educating the adults, the parents, the kids to read these 
labels. We'll get light years ahead by doing this, whether you 
eat it at home or eat it at school.
    Mr. Keller. Well, let me have a follow-up to that. You and 
I know that when you go to the grocery store, you could buy the 
Twinkie, or you could buy a cucumber. When you go to 
McDonald's, you can get the salad and diet Coke, or you could 
get the milkshake and Big Mac.
    And I can tell you that another witness who testified 
before the Judiciary Committee not too long ago on the 
childhood obesity issue, a lawyer, kind of took the other side 
that you and I are taking. And he essentially said that 
personal responsibility does not matter, that exercise does not 
matter, and the solution to childhood obesity is putting extra 
tax on things like Twinkies and allowing overweight people to 
sue McDonald's. What's your opinion of that strategy?
    Dr. Cooper. It's been tried. It doesn't work. Taxation 
legislation will not work. It's going to have to be personal 
motivation to do this. I can assure you that.
    And I know we've talked about whether the tax issue. 
Professor Banzhaf, I know quite well. He's the one that's been 
promoting it with the cigarette smoking now and attacking 
McDonald's and things like that. I do not feel that's the 
approach. We have to go back to the public and educate the 
public.
    But we do have an increase in interest. Look at the 
consumption, for example, of Frito-Lay and sensible snacks. 
They're going up exponentially. Why? Because Americans are 
beginning to get the message that they didn't make those 
changes themselves. That's not being legislated. That's being 
educated parents doing this.
    We need to make it simple. For example, the Frito-Lay 
products, we have a logo on the front, the little two runners 
on the front. It's met the standards that I've mentioned here. 
So it makes it easy for the housewife going down the aisle at 
the grocery store to know without reading the label what is 
good, what is bad.
    Why couldn't we have some type of government standard for 
that? And Professor Banzhaf is recommending that. We should 
classify foods, whether they're fast foods at the McDonald's, 
whether they're snacks, whatever it may be. It's a class 1 or 
class 2 or class 3 food. Maybe indicate them by stars or 
runners or something of that type to make it easy for the 
American public to select these foods.
    The other thing that he says, and I tend to agree with, is 
make the best foods cheaper foods. If you go to the McDonald's, 
you go to the fast foods, you go to the grocery store, and the 
best foods on the market, make them the cheaper foods to have 
that financial incentive for people to buy those.
    So many people that go into McDonald's that are using food 
stamps, and they've got to select with their four kids and the 
two adults the cheapest thing on the menu. So if you make the 
cheapest thing on the menu--this is supporting Professor 
Banzhaf. Make the cheapest thing on the menu the best food for 
you, and the worst on the menu the most expensive food, a lot 
of people will be motivated to go that way. That's something 
you ought to consider.
    Mr. Keller. You don't think the suits against McDonald's 
are going to make a lot of people any skinnier?
    Dr. Cooper. Think they'll do what now?
    Mr. Keller. Do you think those suits against McDonald's are 
going to make anybody any skinnier?
    Dr. Cooper. No, I don't think so.
    Mr. Keller. One final question, and I'll yield back to 
Chairman Osborne. I guess the reason that some of these PE 
programs were cut initially in 49 out of 50 states is there 
were some who, perhaps inaccurately, viewed the PE classes as a 
luxury, and something that takes away from academics. And is it 
my understanding from your testimony that it's not a luxury. 
It's a necessity. And, in fact, there is a positive correlation 
of PE and enhanced academic performance?
    Dr. Cooper. That's a part of my written testimony, as 
you'll read later. And that is this fabulous study from 
California that looked at the Stanford Academic Achievement 
scores versus our fitness gram test we've had in existence for 
25 years, used throughout this country in over six million 
schools--or six million students.
    And what we showed in testing six things, from the aerobic 
capacity to the percent body fats, strength and flexibility, 
all these various things, in their reading and math skills, in 
953,000 fifth-graders, seventh-graders, and ninth-graders, 
there was a perfect correlation. The children who passed all 
six of the fitness tests scored the highest academically. Why? 
I thought you might find this of interest, just published last 
week, from the University of Oregon, that running increases the 
brain power. Oregon Health and Service University, OHS, if 
you're looking at laboratory mice and looking at running on 
wheels, the slow-running mice grew more brain cells.
    Another investigator out there looked at monkeys. They 
found the same thing, that monkeys that exercised 5 hours per 
week increased the number of brain cells. In Germany, running 
improved the mental alertness of reaction skills in older 
people. That's going into a whole new field of research that's 
showing that the exercise we're recommending may not only be 
affecting the heart. It may be affecting the brain.
    And we do feel that one way to prevent this major problem 
that we have with Alzheimer's. At least four million Americans 
suffer from Alzheimer's now. By the year 2010, it's estimated 
10 to 12 million people from Alzheimer's. We feel that a lot of 
that could be prevented with regular physical activity, perhaps 
based upon this new research that's now coming out.
    So no, I'll argue until I'm blue in the face that if you 
try to say, ``We don't have time for physical education. We've 
got to put all this time into mathematics and computer sciences 
and technology. We don't have time,'' well, that's the ultimate 
end, as far as the demise of our children as far as this 
country is concerned.
    So these are all things. All are tied together. And it's 
true what the Greeks originally said. There's a relationship 
between mental power and your physical power, and we have to 
keep these things in mind.
    And remember too, it's already been pointed out in the 
testimonies to date, a big advantage of physical exercise that 
people tend to ignore is the psychological advantage. We've 
been able to show in psychological testing on the patients that 
come to our clinic, based upon their major levels of fitness by 
treadmill times, that people who are physically fit are less 
depressed, they are less of a hypochondriac, have an improved 
self image, much more positive attitude toward life, and they 
have fewer somatic complaints. You are different 
psychologically when you're physically fit.
    Mr. Keller. Well, thank you, Dr. Cooper. Mr. Chairman, I'll 
yield back.
    Mr. Osborne. [presiding] Ms. Davis.
    Ms. Davis. Thank you, Mr. Chairman. And I appreciate you 
all being here. You just mentioned mental health, and I think 
the question had been raised. My understanding is that perhaps 
you didn't address it as much in children. And what kind of 
studies or evidence do we have for the balance of food and 
energy, and how young people are really affected in the school 
environment by better nutrition and better exercise?
    Dr. Cooper. The study I was referring to earlier from the 
State of California involving those 953,000 students also did 
show us, you will see in my written testimony here, that there 
were dramatic changes in their mental health, too, as far as 
their receptivity, as far as their mental response time. Their 
overall attitude and their overall mental state of health--I 
was trying to look that up right now--was dramatically improved 
in those who were at the higher levels of fitness.
    Dr. Young. I think also that the other side of the coin, 
the obese children are having social/emotional problems and 
difficulties because of their obesity and their inability to do 
certain kinds of things because of it. And so, you know, having 
a good nutrition and physically activity program for them will 
improve their status in the short term, not only the long term.
    So I think that those things are important. And we also 
know that exercise in general helps children to tend to be on 
task, to relieve stress and depression and all the things that 
it does for adults. So certainly, this is important in their 
whole school performance.
    Dr. Cooper. Ms. Davis, excuse me 1 second. It says, 
``Physical active children also had improved self esteem, were 
better able to handle adversity, and had better problem-solving 
skills.'' That was from the California study.
    Ms. Davis. Mr. McCord, perhaps you'd like to respond too. 
Because I think that in many ways, that's common sense to a lot 
of us. And yet it's clear that whether it's the Federal 
Government, state, or even the local school districts haven't 
provided the kind of incentives, I think, to create the 
programs that we think will do well by our children. And that 
goes, I think, to the training of our professionals as well in 
the school. Can you respond to that, Mr. McCord?
    Mr. McCord. Well, we've taken it upon ourselves in 
Titusville to do things because of the importance to our kids 
with some of the stuff that Dr. Cooper and Dr. Young have just 
mentioned, so much to the point where our district has seen 
that our kids are becoming more attentive after they leave our 
physical education classes, that our guidance counselors and 
principals are looking into scheduling some of our students' 
toughest classes immediately after physical education.
    Ms. Davis. Are we--what incentives, then, do you think 
would be important for Federal Government to have? Are they 
such that if you don't have certain programs that really not 
just provide the recess time, but that are solid, substantive 
programs that involve the training of professionals, that 
incorporate teachers' training across the board in these areas, 
that I think integrate it with community service learning. I 
think there are tremendous opportunities there in the community 
also to have young people involved in exercises which include 
whether it's aerobic type work or whatever, and certainly in 
mentoring and working with younger children. Should we be 
putting so much more into our standards, I guess, or funding 
requirements that involve that?
    Dr. Young. I certainly think that one of the things that 
the Federal Government can do is to be certain that physical 
education and health education are considered subject areas 
along with everything else. And right now, there is a 
distinction between so-called core academic areas and health 
education and physical education, which is very damaging and 
accessing various existing Federal programs to support physical 
education and health education activities such as staff 
development or particular funding programs for teachers and 
teacher development.
    So I think that's one thing, to put them in the pool of 
people that are participating and competing in these various 
programs instead of separating them out without necessarily 
costing any more money.
    Certainly, the PEP funding has allowed a number of school 
districts, increasing numbers of school districts, to begin to 
make a different in the kind of physical education programs 
that they're offering. And so certainly, those kinds of things 
do help put these quality programs that are not just recess or 
throw out the ball or whatever in place.
    Mr. McCord. If I may, another thing that we have seen in 
our school district as a result of our physical education 
program--and this was noticed by our principal more than by the 
physical educators--kind of a by-product of what we've done 
with our kids is we have seen the instances of bullying in our 
district go down immensely, to the point where last year, we 
had no fights in our middle school at all. And that was a very 
remarkable thing.
    And then we are also seeing our technical students that go 
to vocational tech school, they are coming back to our school 
for the afternoon and taking physical education, and are 
performing at a much higher level than they ever have been in 
the past.
    Ms. Davis. I have the articles here talking about in Los 
Angeles and other areas around the country, taking sodas away 
from kids. It's a big effort. Some kids are grumbling. But I 
think from some of your testimony, I think we would suppose, a 
greater effort ought to be put into the program. And I think 
it's partly training our professionals as well, and educating 
them, our families, of course, to engage in a lot more of that 
physical activity. Do you think that would make a greater 
difference than getting rid of the soda machines? Or are both 
important?
    Dr. Young. I think both are important. And it's not so much 
getting rid of the machines, but having healthy choices in the 
vending machines, water and juices and other kinds of 
beverages. And then that goes with the educational process in 
helping them to make good choices and learn to make decisions 
for themselves, so that we don't restrict everything and then 
turn them loose at some point, and they're so--they've never 
had to make decisions, and so then they don't make good ones. 
And so I think it is both.
    Dr. Cooper. A few years ago, in Rio de Janeiro, Brazil, 
they made it mandatory--they have an obesity problem there, 
too--that they eliminate the vending machines from the schools 
across the board. Right after that, the mobile vendors came up 
outside the school and made a killing, because the kids go 
outside to get what they want.
    They passed a second law that said you couldn't have a 
vending machine within 200 meters of the school. They moved 
down the block. They finally gave up.
    You could put all the vending machines at the bottom of the 
ocean. It will have no effect on the obesity problem. Because 
you have to change the kids' habits and attitudes and educate 
them. That's all there is to it.
    And that's why we're starting--in fact, even today, back in 
Dallas, there's a meeting between the Dallas independent school 
district and the Frito-Lay organization. And we're trying--
we'll be putting in three specialty vending machines in a high 
school with 2500 students in west Dallas. And these three 
vending machines will be right along beside the other vending 
machines.
    And I'll be going out there with the superintendent of 
schools, Dr. Michael Moses, to educate and motivate these 2500 
primary Latin American-type students to select these products. 
And we'll try this as an experimental trial to see if we 
educate and motivate the kids and have available very 
attractive-looking vending machines that contain only class 1 
foods, the type I mentioned a while ago, that met the standards 
established by myself and the Harvard School of Public Health. 
Will the kids buy these products? If successful, we're going to 
start a city-wide effort in Denver, Colorado, where we have 
another branch of our institute.
    But again, it's an educational, motivational process. I'm 
not asking for money from the government to do this. I'm going 
to say, ``We'll do this ourselves.''
    But we've got to get that message across to the kids. And 
I'm convinced if we get the parents convinced, get them to set 
the example, the kids will follow suit. But if you start with 
the kids, at times, they motivate the parents. It goes the 
other way too.
    So we're going to try that effort right away in Dallas, and 
see if that's going to work.
    Ms. Davis. Great. Thank you.
    Dr. Young. Kids do pretty well with salad bars, so 
hopefully, they'll do OK.
    Mr. Osborne. Thank you, Ms. Davis. Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman. First of all, I'd 
like to thank Dr. Cooper for being here. He really is the guru 
of physical fitness. And I know that when your military book 
came out, we all got that. And it was tough to do all those 
things that you asked us to do. But that really was something, 
I think, that really started the physical fitness craze, and I 
thank you for that.
    And I think maybe it just has--maybe you need a new book, 
if it's gone flat in the '90's, to come out and renew the 
passions that people have about physical fitness.
    And then Mr. McCord, I have here my PE4Life pedometer, and 
I have done 5,601 steps so far today. So, you know, I've got 
another 4,000-and-some to do to get to my 10,000. And I must 
admit that it's pretty easy around here, particularly on days 
of votes, when we're going back and forth to the floor.
    But what this does--you know, the PE4Life Program in 
Naperville, in my district--and I have been to see that, and 
you have caught the passion of Phil Lawler, and I applaud you, 
because I think that this is so important. And when I wear 
this, what it does is, ``Let's see. How many steps have I 
taken?'' So I will walk up the stairs instead of getting in the 
elevator, because I've got to get those steps in.
    But my personal best is 23,000 steps in a day. So I'm 
moving a lot that day, and going to my step classes and things 
like that.
    But it just makes you want to do it. There's something 
that--you're competitive with yourself, I guess, to make sure 
that you can do it.
    But having visited the program and seen what goes on and 
seeing the kids on the treadmill having fun, and they'll go, 
``Oh, I did this much today.'' And it automatically keeps track 
of what they're doing, so that, you know, they have a scale of 
what their physical fitness is, and how proud they are of it.
    I also saw the kids learning to do the tango. Now, this is 
high school kids. And I remember having to do square dancing 
and things. And there are all these kids, ``Oh, I don't want to 
do that.'' But they were having so much fun. They really seemed 
to be enjoying it. All the variety of things that they do, you 
know, the ropes and the rock climbing. I just think that you 
have hit on something that is so outstanding.
    And I must admit that I've always been somebody who really 
cared a lot about physical education. And when I was on the 
school board in Illinois--and we do have the mandated PE. But 
there is always--you know, they're always trying to encroach on 
it, trying to say, ``Well, we'll have recess,'' or ``We'll 
waive this for kids that are in sports,'' or, you know. And 
I've always been just an absolute advocate for the physical 
fitness.
    And I see my kids that now with their youngsters, their 
toddlers, all these kids eat vegetables. I mean, and they all 
are runners. And it's just been--to see the whole family be 
really involved in fitness and how important it is. And I see 
that in the kids that are at school, like yours, because they 
really feel that when they see progress in the fitness, and how 
much better they feel, and the attitudes, and, you know, just 
the smiles on faces for dancing, I think, at that age is quite 
something.
    But one other thing that I wanted to say is there are 
Federal grants for PE, and I know that several of the school 
districts in my area have taken advantage of it. And I know 
that the numbers of schools that go to see the program in 
Naperville is just growing and growing and growing, because I 
think people are catching that message.
    When I was at Stanford, I took 4 years of PE. Everybody 
thought I was crazy, you know. But I think when you start that 
in the lower grades, and it's fun for people, that it really 
increases the commitment that you have to this. And so I hope 
that all schools will 1 day really realize the value of this. 
And I'm really happy that you all are here, and I think this 
has been a great hearing.
    I probably don't have any more questions, because I think 
everything has been answered at least once or twice. But I just 
want to applaud all of you for what you're doing, and keep it 
up. Thank you.
    Mr. Osborne. Thank you, Mrs. Biggert. I believe that Ms. 
Woolsey maybe had something further. And I would just like to 
quickly ask a couple of things.
    I know, Dr. Cooper, you've been an advocate of some type of 
vitamin regimen, particularly for people who have 
cardiovascular disease. I'm going to throw out about three 
things, if I can get a short answer to each one.
    One is a vitamin, maybe just one a day or whatever, in the 
school lunch. Because I know kids really don't sometimes have 
very good balance to their diet.
    The other--and this may be something you'd rather dodge. 
But any thoughts on the Atkins diet?
    And then any of you on insurance. You know, I know at one 
time, Mutual of Omaha funded some programs, assuming that if 
people would get into an exercise and diet regimen, that it 
would reduce the cost of health care. And I see that as a 
possible avenue, you know, in terms of funding different kinds 
of programs. I think you alluded to it earlier.
    But that's probably a lot. But if anybody could take a shot 
at that, maybe particularly the vitamin thing, Dr. Cooper.
    Dr. Cooper. Thank you for the opportunity. Vitamins are 20 
percent of your medicine supplementation. I really believe that 
20 percent of your medicine consists of proper weight, proper 
nutrition, proper exercise, and proper supplementation.
    As you know, we've been looking at the value of exercise in 
diagnostic preventive rehabilitative medicine over the past 35 
years, and our data now is too impressive to be ignored. You 
must exercise for part of a life and wellness program. Vitamin 
supplementations have been controversial, primarily because 
there's so little control because of DSHEA, the Dietary 
Supplement Health Education Act of 1994, since which the 
vitamin industry has been out of control. That's being changed 
gradually by the current Congress and current administration.
    I'm pleased to see such things as the Lewin Report recently 
that showed that in people over 65 years of age, if they took 
just one vitamin supplement a day over the next 5 years, that 
could reduce the cost of Medicare expenses by $1.6 billion, 
apparently because it does increase your immunity from 
infectious diseases.
    For the past 3 years, we've been studying vitamins under 
our research institute. And we have a series of supplements 
we've been evaluating scientifically, including clinical 
trials. We've now published three major articles in peer review 
journals on the value of vitamin supplementation by clinical 
trial, been able to show that it will block the oxidation of 
the LDL cholesterol by at least 14 percent, lower the 
homocysteine by at least 15 percent. And the most important 
thing is to reduce the C-reactive protein by 32 percent, which 
even this week has been related to macular degeneration of the 
eye, and last week, colon cancer. So I think the potential for 
vitamin supplementation, at least for adults, is without 
question.
    Now, could we apply that to children? No one knows. Maybe a 
single vitamin supplement tablet daily costing pennies would be 
the best thing we could do to add to the school lunch. No one 
can answer that question yet. But if we can translate what 
we're finding in adults to children with their vitamin 
supplementation, then that may be of great benefit.
    I would add, as you know so well, when I started my center 
in Dallas some 33 years ago, we had no government support, NIH 
support, for our research linking exercise in relationship to 
health. We now have 16 NIH grants.
    Now, we don't have any grants for vitamins, because that's 
still so controversial. That's the next thing I think NIH needs 
to get involved in, particularly vitamin supplementation for 
children, as well as adults, because there is no data.
    The second thing, the Atkins diet. I've never been a 
proponent of the Atkins diet. The Atkins diet is a quick-fix 
type of diet. It goes directly opposite to what's been 
recommended for years by the American Heart Association, the 
American Medical Association, and still, there is no long-term 
data to show the benefits or the harm of the Atkins diet. The 
weight loss that's lost initially is strictly because of fluid 
loss the first three to 4 days. It causes ketosis, which 
historically has been associated with increasing risk of kidney 
problems, causes abnormality in the newborns in a mother who's 
on an Atkins type of diet. But one of the building problems I'm 
afraid of, it's going to cause an epidemic of osteoporosis in 
women, because it leaches calcium from bones if you're on a 
high protein diet. The quick fix that you get with the Atkins 
diet as far as losing weight, as far as the drop in 
cholesterol, is not because of the Atkins diet. It's because 
when you lose weight, your cholesterol goes down.
    A study being funded now by NIH, Dr. Gary Foster from the 
University of Pennsylvania, is the only legitimate study that's 
going on. It's 1 year into its study. There's been no studies 
to date lasting longer than 6 months showing any potential 
benefit as far as keeping weight off as far as the Atkins diet 
is concerned.
    I would not touch the Atkins diet. I would strongly 
recommend that we stay with the standard American Heart 
Association diet or a Weight Watchers diet, something of that 
type which is valid.
    The final point as far as insurance is concerned. At our 
center in Dallas, 82 percent of our patients are self-pay, 
because insurance will not pay for preventive medicine. I keep 
telling health insurance that they need to change the name of 
your policy. You aren't selling health insurance; you're 
selling disease insurance. You aren't selling life insurance; 
you're selling death insurance. Try to collect on your life 
insurance when you're alive.
    Primary care is secondary care. I take care of patients 
when they're healthy. Physicians see patients when they're 
sick. That's secondary care.
    I hope 1 day we may regress back or progress forward to the 
days of the ancient Chinese. We were told that they paid their 
physicians only when they were well. Once a person got sick, 
the physician didn't get paid.
    Yes, I think those are concepts that are changing. Ten 
years ago, fifteen years ago, Medicare wouldn't pay a thing for 
preventive medicine, and insurance would pay nothing for 
preventive medicine. That's changing dramatically, and I 
compliment Medicare for doing that. Because if you pick up that 
early cancer of the colon, which is the third leading cause of 
cancer death in America today, if you pick that up early as a 
polyp and remove that cancer, it costs you 75 to $100. By 
picking up the polyp, you're saving that person at least 
$50,000 long term if they come down with cancer of the colon, 
and saving their lives.
    There's no question about the cost benefits of preventive 
medicine when applied properly, but it has to be--it can't be 
an afterthought, as it is for more physicians. It must be a 
primary program itself, as we've practice effectively for the 
past 33 years in Dallas.
    Now, Mr. Osborne, I do think that the insurance companies 
are beginning to change. And I think before long, you'll be 
offered super select health insurance, super select life 
insurance. And I've found historically that money is still the 
best motivator, if somehow we can award some type of financial 
incentive.
    As you know, when I was being considered for surgeon 
general and I had a concept that they called the Cooper Plan to 
motivate the American people to change their lifestyle and get 
a reward as far as their income tax was concerned. For example, 
if you had a body mass index under 25, you get $250 off of your 
income tax. Your blood pressure is less than 140 over 90, 
another 250. Cholesterol is less than 200, another 250. You 
don't use tobacco products in any form, another 250. That's a 
thousand dollars in incentive.
    Look at the returns on that. We have a hundred million 
people that are overweight, we've got 60 million people with 
high blood pressure, we have 50 million people smoking 
cigarettes, and 40 million people with cholesterols above 240. 
If we have some type of financial incentive, that might be the 
thing that would turn America around.
    So it has to be resolved from Congress. It has to be 
resolved from insurance. But I think we're making headway.
    Mr. Osborne. Thank you. I have more than used up my time 
here, and I apologize to the other two witnesses. But I'd like 
to at this time call on Ms. Woolsey.
    Ms. Woolsey. Thank you. Thank you, Mr. Chairman. Let's just 
go back to given the lifestyle young people have today and 
their eating patterns, is 35 minutes a day exercise good enough 
to offset that? And if so, is it happening, and if not, why 
not? Just boom, boom, boom. Let's start down here with Dr. 
Young.
    Dr. Young. Well, we believe that children need more 
exercise than the minimal moderate 30 minutes a day that is 
recommended for adolescents and adults. And there is work being 
done right now to review studies that have been done more 
recently to look at all the recommendations for specific 
amounts.
    But I think sometimes, this 35 minutes, so someone walks 
for 35 minutes, and then they have a very, very sedentary life 
and lots of eating, is a little misleading. And so I think 
it's, you know, teaching people again in terms of students, 
especially, kids, young people, understanding about this whole 
complex. I mean, there's all the other things that you're 
doing--walking around the halls here, or walking to your car, 
or shoveling your car out, or whatever has to be done, all of 
those things are spending calories. And so it's not whatever we 
decide to do as a workout.
    I kind of talk about incidental activity and systematic 
activity, and we're needing to have more systematic activity, 
because we get less incidental in our society. And the good 
news about that is we get to pick what it is we do, whether we 
go for a walk, or ride our bike, or work out at the gym, or 
whatever it is.
    The bad news is we have to do something. We can't just 
assume that we're going to have enough because we're doing farm 
work, or whatever used to happen to human beings. And so I 
think we need to, especially for kids, not aim for the minimum, 
but try to get them to be generally active people and enjoy 
activity.
    Ms. Woolsey. Just as an aside, parents and patterns and 
learning to walk. I'm just appalled at how many kids I see in 
strollers that have their knees up to their chins. I mean, the 
parents are getting exercise because they're pushing these 
kids, but they should be walking. Mr. McCord?
    Mr. McCord. Well, I would agree with you on that. And I 
would like to see our students get much more than the 35 
minutes of activity of which you speak. And as far as what 
holds them back, there's a lot of reasons that may hold them 
back. Some of them may be that there's not a parent at home, 
and they're told that they have to stay at home. There are 
issues such as safety in the community, and whether or not the 
kids can come out and play in a safe manner. So you have issues 
like that that arise once in a while.
    But there's no doubt that we would love to have them more 
than 35 minutes. And a way that we can do that, if they want 
more than 35 minutes outside a school day that they can do, 
great, but the school can provide quality physical education to 
add on to that 35 minutes.
    Dr. Cooper. An interesting study we did years ago in 
children up to 10 years of age, we found that their level of 
fitness was surprisingly good on their own. And up to 10 years 
of age, in our studies, the girls were better fit than the 
boys. This is in San Antonio, Texas. Eleven and twelve years of 
age, it started decreasing. And once they got 13 years of age, 
then the level of fitness in girls started dropping 
dramatically because it wasn't ladylike to get out and run and 
play like they did when they were 10, 11, and 12 years of age.
    So I would say to answer your question, I believe that K 
through 4, ordinarily up to about 10 years of age, that 35 
minutes is enough, 5 days a week, would be adequate. Because 
it's not those kids that I'm worried about. It's once they 
start going through puberty that we have the problems. And so 
I'd say up to 12 to 13 years of ago, then we do need the 55 
minutes 5 days a week to have the optimal type of conditioning 
and training program.
    We implemented our K-through-12 program in Texas back in 
October of 2002 and made it mandatory that kids K through 4 
must have at least 35 minutes of exercise 5 days a week. All of 
a sudden, we had 800 schools, elementary schools, that had no 
PE teacher. That was the problem. And that responsibility was 
given to the classroom teacher.
    And then the people started complaining in the neighborhood 
and the schools, saying, ``What about art? And what about 
music?'' And so they started phasing in 1 day you had PE, 1 day 
you had music, 1 day you have art, and they watered down the 
program until it's nothing. But the big problem was we had no 
PE teachers.
    Ms. Woolsey. Thank you very much.
    Mr. Osborne. Ms. Majette, do you have anything further?
    Ms. Majette. In some areas, due to liability concerns, some 
schools are replacing or eliminating playground equipment, or 
reducing recess and restructuring that. Do you have any 
suggestions on how that issue can be addressed, and whether 
it's something that we can do something about, or some 
suggestions how we can deal with those limitations that are 
being imposed?
    Dr. Young. Some of that has to do with good staff 
development, once again, because the two reasons that recess is 
being--or the most prominent reasons that recess is being 
eliminated, as we survey around the country, one is 
supervision, which is what you were alluding to, and the other 
is time. So we're taking 20 minutes more of time twice a day, 
which used to be recess, and using it for other things.
    But the supervision issue, where there's fighting and all 
kinds of other kinds of things, unsafe conditions on the 
playground, is partly a process of training teachers, both 
physical education teachers, but probably the other teachers, 
or whoever is going to do supervision on the playground, so 
that kids are encouraged to be active and still be safe during 
recess time.
    But it's very important for there to be recess time as well 
as systematic instructional physical education, because recess 
time, one, it's sort of a little bit of a lab for them to 
practice making decisions on their own, and they're not making 
good ones. That's why we're having fights and things. And the 
other thing is I can't keep a--and I deal with lots of 
meetings--but I can't keep adults in a meeting for more than an 
hour without their starting to get up and leave and get coffee 
and go to the rest room and whatever. And so we can't expect 
children to stay in their seats or march around in lines for 6 
hours a day without recess time.
    Ms. Majette. Thank you. I don't know if either one of you 
have a comment about that. And I just have one other thing to 
ask, and Dr. Cooper, perhaps you can address this. What kind of 
influence do you really--or realistically think that--or maybe 
we can't--but what do you think we can do in terms of marketing 
and with respect to the food industry to get children and 
adults to focus on making those wise choices? You know, I think 
part of the problem, if you see commercials about--and I don't 
want to call any names--but, you know, you see commercials that 
promote one type of food or another, and you don't see those 
same kinds of commercials promoting strawberries and fruits and 
vegetables in a way that makes it palatable, then when you're 
presented with these choices, you're going to--I think it's 
human nature to just sort of gravitate to the things that you 
see a lot about and that seem to be appealing to you, or made 
appealing to you as a result of the marketing.
    So with your relationship with Frito-Lay, for example, do 
you see that there are ways that you could influence that 
company to help market some of those other things that may not 
be things that they sell, but in the grand scheme of things 
would be important to get kids and adults to understand that 
they need to have those foods, and well as some of the snack 
foods that are also produced.
    Dr. Cooper. Two comments. One would be that if you look at 
the back of these new Frito-Lay products that are class 1 
standard, they have a logo on the front with the two runners, 
on the back, you'll see a health message. And I've given them 
over a hundred messages, one-liners, to use to try to get the 
parents to read these things.
    The second thing is that I think you're exactly right. If 
we can get the food manufacturers to promote physical 
activities, we're way ahead. Already, Pepsico has done that, 
Pepsico and Frito-Lay. One thing that they've done is that they 
sponsored the Marathon Kids' Program in Dallas. And we had over 
10,000 kids for 1 year worked on trying to get 26 miles. So 
they actually went out and funded that, a Marathon Kids' 
Program that's been so highly successful in Texas.
    Another thing they're funding now and putting several 
million dollars into it is the Run For Your Life Program. And 
you'll see this year that they're going to be starting some 
national advertising and promotion of people getting involved 
in the pedometer program and trying to work up to 10,000 steps 
per day, and Pepsico is paying for that themselves. So that's 
corporate responsibility.
    In working with Secretary Thompson just the other day, he 
asked that we're so pleased with what Pepsico is doing in 
trying to promote and educate the American people as far as 
good health is concerned, how do we get other corporations to 
do the same thing?
    So I think that already, that is happening, that the 
Pepsico/Frito-Lay concept is getting out there and setting an 
example, putting money into it to motivate the American people, 
the American children, to improve their health. They're setting 
the example.
    Ms. Majette. And do you think that there is a role for the 
government to play in that regard, or should we just leave it 
to the private sector to address the issue?
    Dr. Cooper. There's been ongoing discussions with Pepsico 
and Secretary Thompson about the ways that we can collaborate. 
And Pepsico is actually funding some activities that have been 
supported by Health and Human Services. So there's a 
relationship there already. I think it can go both ways.
    But I think if we can motivate the big corporations in 
America to just follow the example. First of all, providing 
better products, educating the kids to select those products, 
motivating the kids using--is the type that we're using, that 
they have responsibility there, and they can have a gigantic 
move, a gigantic step in the proper direction by doing that if 
the government would just support that type of endeavor.
    I do not think--as we keep saying, I do not think that 
taxation or legislation on fat food products is the way to go. 
It's not going to work. But if you can educate and motivate the 
people, and get the corporations to do what we're talking about 
right now, we'll be way ahead.
    Ms. Majette. Well, I agree with you. I think it's better to 
use the carrot than the stick. Carrots taste better than 
sticks.
    Dr. Cooper. That's right.
    Mr. Osborne. Thank you, Ms. Majette. With that, I ask 
unanimous consent for the hearing record to remain open for 14 
days to allow Members' statements and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record. Without objection, so ordered.
    I thank both the witnesses and Members for their valuable 
time and participation. If there's no further business, the 
Subcommittee stands adjourned.
    [Whereupon, at 11:55 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

  Statement of Hon. Fred Upton, a Representative in Congress from the 
              State of Michigan, Submitted for the Record

    Obesity and poor nutritional habits are growing problems in our 
nation, particularly among our children and adolescents. The health 
costs in the not so distant future will be stratospheric due to our 
nation's youth's poor eating habits.
    The very foods children need for good nutrition are often grown in 
their own communities. Farm to Cafeteria projects across the country 
link farmers with local schools to serve students the freshest possible 
foods as part of the National School Lunch Program. When combined with 
nutrition education, farm visits, and school gardens, children learn to 
enjoy and even get excited about eating healthy--and at the same time 
family farmers strengthen their markets and community ties. While Farm 
to Cafeteria projects have proven cost-effective over time, schools 
often need assistance to cover the initial staff resources, training, 
and equipment required for a successful project.
    To respond to this need, our colleague Ron Kind and I have 
introduced the bipartisan Farm to Cafeteria Projects Act (H.R. 2626), 
which establishes a $10 million competitive grant program to provide 
schools with up to $100,000 to cover these costs and garner long-term 
benefits for children, farmers, and their communities.
    I ask my colleagues to co-sponsor this piece of legislation, to 
show the country that we care about what our children are eating.
                                 ______
                                 

          Statement of Darrell Green, Submitted for the Record

    Thank you Mr. Chairman and Members of the Committee for inviting me 
here today to discuss a very serious mental and physical health issue 
in our country today childhood obesity.
    I am honored to be invited here today to discuss an issue of such 
importance to the future of our great nation.
    In a minute I will speak about children, but first I'd like to say 
how impressed I am with President George W. Bush's diligence and 
commitment to physical fitness. There couldn't be a better President to 
serve as a role model for physical activity in this country. President 
Bush doesn't just play lip service to physical activity; he plays sweat 
service. His activities--running and working out--are an integral part 
of his everyday life.
    Now we've all heard lots of excuses why not to exercise, but if one 
of the busiest men and the leader of the free world can find the time, 
then so should the rest of us!
    I'm here today because I want to help parents, schools, churches, 
and other community partners support children in making physical 
activity a regular part of their day.
    Now just even ten years, you would laugh at me for making a 
statement such as this. An inactive child? No one had heard of such a 
thing! But today, television and computer games have taken the place of 
physical activity for many American children. And kids are playing more 
football on their PlayStation then they are on their playground.
    American elementary school children are now being diagnosed with 
type 2 diabetes and high blood pressure. Once thought of as only adult 
diseases, they have trickled into our homes and schools. We are not 
giving enough attention to our children's daily nutrition and physical 
activity.
    In the past two decades the proportion of children and teens in 
America who are overweight or obese has tripled. Nine million kids are 
carrying excess weight, with millions more at serious risk.
    If the trend continues, this generation of school children may be 
the first in modern times to have a shorter life expectancy than their 
parents.
    It's time for change. Not since a time I can recall has there been 
a greater need for us to take a stand on the nation's health. And 
schools, along with parents, must play a vital role if we are to 
succeed in reversing the troubling trend of obesity.
    Did you know that we spend $117 billion a year on medical costs 
related to overweight and obesity... And an additional $100 billion on 
the costs associated with type 2 diabetes?
    Think of the loss of productivity, the pain and suffering caused by 
obesity, diabetes, and stress! What if we had that $200 billion 
available for other things?
    What would our schools look like if we had billions more for them?
    What would our transportation system look like if we had additional 
billions of dollars for roads and public transit?
    How about our parks and recreation facilities? Or our national 
defense?
    Today, obesity is a major threat to our well being as a nation.
    That fight is costing America much more than the $200 billion I 
mentioned earlier. It also costs 300,000 lives each year.
    Every day, almost 1,000 Americans die because they chose a 
sedentary lifestyle and a poor diet.
    The government can't buy us a healthier nation. It's not a law that 
Congress can pass. It's a change in the lifestyle and culture of each 
individual citizen, of our families.
    As the President says, ``Better health is an individual 
responsibility and an important national goal.''
    The benefits of regular physical activity are widely known. Not 
only will our youth who begin a consistent regimen of exercise feel 
better, have greater self esteem and less risk of depression, but they 
will perform better academically in school, be more productive in the 
workplace, and live a longer, healthier life.
    When local schools make a decision to make a serious commitment to 
help students become more physically active, they will begin to see 
marked improvements in student achievement and a healthier school 
community. That's already happening in places like Titusville, 
Pennsylvania and Naperville, Illinois, as we will hear today from Tim 
McCord.
    I hope we can work together to get all children to be physically 
active at least 30 minutes a day, five days a week. For even that short 
amount of time will produce significant physical, mental, cognitive, 
and social benefits.
    Some of you may be thinking, ``It's easy for you, Darrell Green, to 
come up here and talk to us about physical fitness--you're a former 
professional athlete. A legendary football player, future Hall of Famer 
with Super Bowl rings.''
    As a role model for aspiring athletes and regular kids, it is my 
obligation to help all children improve their health.
    Everyone can use help. Once there was a little boy who had to learn 
how to play sports just like every other young child. He was encouraged 
him to be a good student, a reliable member of the community, and to 
have a strong sense of faith. That young boy learned to play football 
on the playground and improved through hard work and practice in the 
youth leagues and high school and college, and he eventually made it to 
the NFL.
    But it was a school track program and a dedicated coach where he 
first found support and guidance. It was the culmination of those 
positive experiences that helped to shape him into a successful 
businessman and community leader.
    What I learned from sports is this: I didn't know what I was 
capable of until I tried.
    Now I know that not everyone can be a professional athlete. And I 
consider myself very blessed and very fortunate to have had success on 
the gridiron.
    But when kids and adults begin to be physically active, to play 
sports, to walk, run, swim or bike, they will be surprised at the 
things that they are good at.
    Of course, some people just aren't good athletes, but even they 
will be surprised at what they can accomplish and at what they can 
succeed.
    Thank you.

                                 <all>

</pre></body></html>
